<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 111-788]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-788
 
         OVERSIGHT OF THE U.S. DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2010

                               __________

                          Serial No. J-111-86

                               __________

         Printed for the use of the Committee on the Judiciary






                  U.S. GOVERNMENT PRINTING OFFICE
63-274                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accbdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a>  
                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont....     1
    prepared statement...........................................   125
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabma.....     3

                               WITNESSES

Napolitano, Janet, Secretary, U.S. Department of Homeland 
  Security.......................................................     5

                         QUESTIONS AND ANSWERS

Responses of Janet Napolitano to questions submitted by Senators 
  Feinstein, Hatch, Kyl, Leahy, Sessions, and Feingold...........    42

                       SUBMISSIONS FOR THE RECORD

Napolitano, Janet, Secretary, U.S. Department of Homeland 
  Security,......................................................   127
Reyes, Silvestre, a Representatives in Congress from the State of 
  Texas:
    March 28, 2010, letter.......................................   141
    April 16, 2010, letter.......................................   142
University Medical Center of El Paso
    March 16, 2010, letter.......................................   146
    April 16, 2010, letter.......................................   148


         OVERSIGHT OF THE U.S. DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        TUESDAY, APRIL 27, 2010

                       Committtee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Schumer, Cardin, 
Whitehouse, Klobuchar, Specter, Franken, Sessions, Hatch, 
Grassley, Kyl, Graham, and Cornyn.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Good morning, everyone. I know we have 
several Senators in the back coming in, and I appreciate this, 
and I welcome Secretary Napolitano back to the Judiciary 
Committee. I am delighted to see you here.
    Last year ended with an attempted terrorist bombing aboard 
a commercial aircraft bound for Detroit, Michigan. This attempt 
exposed deficiencies in interagency coordination and 
information sharing and also in other countries' screening of 
airline passengers. As a result of that incident, Congress and 
the administration took steps to understand existing weaknesses 
in our systems and how best to correct them. This Committee 
heard testimony from officials from the Department of Homeland 
Security, the Federal Bureau of Investigation, and the State 
Department, each of whom recognized the need to do better. I am 
encouraged by the Department's recent strengthening of airline 
passenger screening policies and the decision to move away from 
a country-specific screening policy in favor of a smarter, more 
flexible approach. And I hope that today we will hear more 
about the Department's efforts to improve security as well as 
the coordination with the State Department.
    Now, along our southern border, we are experiencing 
historic levels of drug-related violence that must be brought 
under control. Families are being murdered, law enforcement 
officers are being murdered, officials are being murdered, and 
brazen shoot-outs are taking place. The Department is centrally 
involved in the fight against cross-border drug, cash, weapon, 
and human smuggling. We saw the brutal murders of two U.S. 
State Department employees in Mexico and a U.S. citizen in 
Arizona. Americans are rightly concerned about the impact the 
situation in Mexico is having here at home.
    The Department has also been involved in aiding the people 
of Haiti following the devastating earthquake in January. 
Incidentally, Madam Secretary, I commend your decision to 
provide Haitian nationals in the United States with Temporary 
Protected Status (TPS). The reconstruction effort will take 
years, but TPS status will enable Haitians in the United States 
to work and send money home to their families and be secure in 
the meantime. I also want to recognize the U.S. Citizenship and 
Immigration Services for granting humanitarian parole to 
Haitian orphans.
    In this regard, I worked with Senator Lugar to advance the 
Return of Talent Act, which would allow a Lawful Permanent 
Resident to return for a limited amount of time to his or her 
native country in order to assist in reconstruction efforts 
following a natural disaster or armed conflict. I think the 
legislation will encourage Haitian nationals living in the 
United States to go back to Haiti without suffering adverse 
consequences to their later application to gain U.S. 
citizenship.
    The Committee also acted recently to assist refugees who 
wish to serve our Government or military overseas. Again, I 
worked with Senator Lugar to advance the Refugee Opportunity 
Act, which would enable refugees to serve our Nation overseas 
without losing time earned toward a green card, and I hope we 
can work together to enact this legislation.
    Marking the 30th anniversary of the 1980 Refugee Act, which 
was authored by Senator Kennedy, I recently introduced the 
Refugee Protection Act. It seeks to improve the law where it 
falls short of meeting our obligations under the Refugee 
Convention.
    I remain concerned about several areas within the 
Department's jurisdiction. The backlog of refugee cases caught 
up in the overly broad material support and terrorism bars need 
to be resolved. The so-called 287(g) program, which engages 
State and local law enforcement in the execution of immigration 
laws, continues to be a source of concern. President Obama said 
recently that we should not ``undermine basic notions of 
fairness that we cherish as Americans, as well as the trust 
between police and our communities that is so crucial to 
keeping us safe,'' and I agree. Madam Secretary, you and I both 
had the privilege of serving in law enforcement capacities, and 
we know that law enforcement breaks down if citizens fear the 
police instead of seeing them as protectors and cooperating 
with them. We must have proper oversight to prevent racial 
profiling and ensure that local law enforcement has the 
cooperation of local communities. Police officers have a tough 
enough job as it is, but if they are seen as an ``us versus 
them'' with the law-abiding community, then they do not get the 
support and the information they need. And I recognize that the 
Department has recently made positive changes to the 
administration of this program, and I look forward to hearing 
more about that.
    Border issues affect us all. They take on particular 
importance to those of us from border States. And while we 
normally think of border States as being our Southern and 
Southwestern States, I hear from many Vermonters about measures 
taken by your Department to alter border policies in towns like 
Derby Line, Vermont, which sits on the Canadian border. I 
regularly hear from Vermonters about freeway checkpoints and 
about Federal use of private land. And I think you would find 
that Vermont farmers are as sensitive to their property rights 
as Texas ranchers are. Federal cooperation and outreach at the 
local level can go a long way toward achieving a mutual 
understanding. The citizens of border States share a great 
burden.
    Finally, I thank you for your steadfast commitment to 
comprehensive immigration reform. I share that commitment. I 
worked with President George W. Bush on that, and I shared his 
commitment to it. And I hope we can see a bill enacted this 
year.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you. Thank you, Madam Secretary. We 
are delighted to have you with us, and you, I guess, lead next 
to the Defense Department the largest agency as a host of 
departments and agencies that have different heritages, and you 
have the challenge of melding them together in an effective 
group, and that takes years and determined leadership. I know 
you are focused on that, and you have to be because it is 
essential. And the whole purpose of creating Homeland Security 
was to gain better cooperation, better cohesion, better 
effectiveness, and it is just--I am sure a lot of people do not 
realize how many decisions you have to make and how many spats 
you have to assuage to keep that Department going well.
    I do remain concerned about a number of issues. I will just 
mention two that I will be asking you about. One deals with 
what your agents' understanding is with regard to the potential 
arrest of a terrorist somewhere in the United States or 
entering the United States. Are they going to be treated as 
civilian criminals? And will they be provided the panoply of 
rights such as Miranda and court-appointed and -funded 
authorities and that kind of thing. What the policy is, there 
is some confusion, it seems to me, and I believe we have got to 
get this clear. I believe it will be a big mistake if we treat 
these individuals as normal criminals entitled to the 
appointment of a lawyer, entitled not to speak, and not to be 
taken to military custody if they meet those standards. And so 
I hope we can work on that.
    I remain concerned about our border. The violence, as you 
know, is increasing and is a serious threat to law-abiding 
people in Arizona and other places along our southern border. 
The power of these drug cartels is very real. The power of the 
coyotes who bring people in illegally is very real. And it has 
got to be confronted in a very serious way.
    I would note that a lot of people might not recognize how 
much progress has been made in the last, say, 10 years. In 
2000, 1.6 million people were arrested at the border. Last 
year, I understand a little over half a million were arrested 
at the border. So that indicates, I believe, that the flow is 
down. It may not be a perfect proof of that, but I do believe 
it does indicate that the number of people attempting to enter 
the country illegally is down to a degree.
    Then the question to me is: How do we follow up on that and 
create a lawful immigration flow into our country that serves 
our National interest, that is consistent with the rule of law, 
and that allows people who want to enter a proper process to 
enter and, if they do not qualify, they do not qualify, they do 
not get to come in illegally if they do not qualify legally.
    So a couple things I have concerns about. I understand in 
February of this year Jim Chaparro, the ICE Detention and 
Removal Operations Director, authored a memo which encouraged 
the administration to step up their deportation numbers. It 
started by noting that ICE had removed 56,000 criminal aliens 
from the U.S. as of February 15, 2010. However, the memo went 
on to detail that the pace of removal was insufficient to meet 
the agency's fiscal year 2010 goals of 400,000 total 
deportations. As a result, the memo suggested a number of steps 
to achieve that goal such as increased detention space and 
increased sweeps or removal of people from jails around the 
country to identify aliens who should be removed and increased 
efforts to identify aliens eligible for expedited removal, 
increased focus on identifying aliens who had been dishonest in 
immigration forms or visa applications and unlawfully entered 
the United States.
    I think he should have been commended for making 
recommendations for progress. Instead, it appears that when the 
Washington Post reported that the administration might, in 
fact, intensify deportation efforts for those who had entered 
illegally, the administration issued a statement basically 
saying they had no intention to do so. And I know you earlier 
had indicated that you are not favorable to sweeps of 
businesses who have people in large numbers working illegally. 
We have got approximately 8 million people who are illegally in 
the country working today, and we have a substantial amount of 
unemployment in our country, and these are matters that I do 
believe need clear leadership from you.
    I was glad to see in your testimony that you have submitted 
that you are expect increased support for State and local law 
enforcement. And we will also talk about the Arizona law and 
precisely what it is that you would disagree with in that. But 
that is certainly one thing that we need to be doing. But I was 
disappointed to hear that the administration's plan is to make 
it tougher for State and local law enforcement agencies in 
effect to assist in enforcing our immigration laws through the 
287(g) program. States and locals are now prohibited from 
asking aliens about their legal status, and in most instances, 
State and local enforcement are required to release individuals 
who are here illegally because the administration does not want 
to fill up immigration detention space with minor offenders.
    So we have got a real challenge. I have always believed 
that State and local law enforcement in the normal course of 
their duties who apprehend people who are not lawfully in the 
country should turn those people over to the Federal officials, 
and they should be processed. And I have not felt and not 
advocated that they should take the primary role in immigration 
enforcement. But I do believe that it indicates a lack of 
commitment to enforcing our immigration laws when we basically 
tell local law enforcement, even if you know you have 
apprehended someone here illegally, nothing is going to be done 
about it.
    Those and other questions will be important for our 
discussion today. You have a big challenge. I would say with 
regard to immigration, the decline in numbers puts us on a path 
to make dramatic improvements, continued dramatic improvements 
in immigration enforcement. We have got to get away from the 
virtual fence, complete the fencing that we are required to do, 
make sure we have enough people at the border to enforce the 
law. If we do that, I think people would be surprised how much 
continued progress we could make. And it is only in doing that 
that we will then be able to have a decent, good discussion 
about what to do about people who have been in our country for 
a long time and how to handle them.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Secretary Napolitano, it is all yours.

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you. Thank you, Chairman 
Leahy, Senator Sessions, members of the Committee, for the 
opportunity to testify. I would like to focus my opening 
statement on southwest border security, but I look forward to 
addressing some of the other issues that the two of you raised 
in your own opening statements.
    Let me begin by reiterating that anyone who has worked 
directly on the border knows the enormous challenges presented 
there. We had the murders of the personnel connected with the 
U.S. consulate in Ciudad Juarez, as well as the recent murder 
of a long-time rancher, Rob Krentz, in southern Arizona. All of 
those things are tragic reminders of the need to support 
Mexico's fight against the cartels within Mexico, but also the 
need, as Senator Sessions recognized, to keep up our efforts on 
the southern border.
    We now have more manpower and technology at that border 
than at any time before. And the challenge, however, is deep 
and it is complicated. We are responding with a partnership 
among the Department of Homeland Security, the Department of 
Justice, the Department of States, with the Merida Initiative. 
This is a partnership, as you know, focused on assisting Mexico 
in their fight against the cartels on their side of the border.
    In addition, we have expanded partnerships between DHS and 
DOJ because for every apprehension that DHS makes, DOJ is 
responsible for prosecution. In this effort, manpower is 
important, and it is more than just about numbers. We need to 
help investigate and prosecute the cartels, prevent them from 
proliferating. We also must, as Senator Sessions recognized, 
assist State and local law enforcement responders to problems 
emanating from the border.
    Now, as a result of what I believe to be focused and 
strategic and consistent pressure along the southwest border 
over the past months, we have shut down more and more key 
trafficking routes used by the cartels, and that is what I hope 
that we can review today, the significant steps taken in the 
past 15 months as part of our Southwest Border Initiative, the 
results of those measures and what more can be done.
    First, over the past 15 months, as I mentioned, we have 
mobilized an unprecedented level of resources at the southwest 
border. This is due in no small part to Congress' own actions 
to dedicate resources to the border. The Border Patrol is 
better staffed than at any point in its history, more than 
20,000 personnel. Since 2004, the number of boots on the ground 
along the southwest border has increased by 80 percent. U.S. 
Immigration and Customs Enforcement has dedicated over a 
quarter of all of its personnel to the southwest border region, 
the most ever.
    We also have more personnel than ever strategically 
dedicated to efforts like southbound inspections, intelligence, 
and interagency anti-smuggling task forces. We have more K-9 
teams searching for illegal cash and illegal weapons. And for 
the first time ever, we are scanning 100 percent of southbound 
rail traffic.
    We have doubled the number of personnel assigned to Border 
Enforcement Security Task Forces, known as BEST teams, and we 
have quintupled the number of border liaison officers assigned 
to the southwest border.
    We have deployed more proven and effectiveness technology 
there than ever before. These include record numbers of Z-
Backscatters, mobile X-ray units, mobile surveillance systems, 
and non-intrusive inspection equipment--all at our ports of 
entry, and some deployed between our ports of entry.
    We have increased other resources available such as aerial 
resources. This means more fixed-wing aircraft, helicopters, 
and Predator Bs deployed than ever before.
    We have fully implemented the Western Hemisphere Travel 
Initiative technology at all of our southwest border ports, and 
we can now biometrically verify individuals entering the United 
States through pedestrian lanes across the entire southwest 
border.
    We have more physical infrastructure there than ever 
before. We continue to make critical improvements to the ports 
of entry and to the checkpoints between the ports of entry.
    We have finished all of the vehicle fencing that was 
provided for by Congress. We have fewer than 6 miles of 
pedestrian fencing left to complete for a total of 652 miles. I 
have also asked for CBP to re-examine their current budget to 
prioritize fencing in key areas that are in need of bolstering 
or of repair.
    Let me pause a moment to speak about partnerships with 
Mexico. They are unprecedented in the history of our countries, 
and I say that as someone who, as a former U.S. Attorney, 
Attorney General, and Governor of a border State, has been 
working border issues for a long, long time. But I have never 
seen this kind of robust partnership with Mexico and with its 
Federal Government and Federal agencies.
    Among the historic agreements I have signed just in the 
past months are agreements on sharing cartel-related 
intelligence and sharing the criminal history of individuals 
who are being deported back to Mexico from the United States.
    In addition, our partnerships with State, local, and tribal 
law enforcement are key, and we continue to help them combat 
border crime. One of the primary tools we have used for that is 
Operation Stonegarden, which received $90 million from the 
Congress in funding last year. That was $30 million more than 
originally planned. We deployed a full 85 percent of the 
Stonegarden funding to the southwest border, and not only that, 
we broadened the kinds of uses to which those funds could be 
put so they are more flexibly used by local law enforcement.
    And if I might, we can look at some of the numbers because 
we are producing results. We have seized 14 percent more in 
illicit cash along the southwest border this year than last 
year. We have increased by 39 percent the seizures of illicit 
cash going southbound this year over last year. We have 
increased 15 percent the seizure of illegal drugs coming in, 
and we have increased by 29 percent the seizure of illegal 
firearms going out.
    As was noted, apprehensions are down. Apprehensions are 
down 23 percent between 2009 and 2008, indicating that fewer 
people are trying to immigrate illegally or to cross the border 
illegally. And just a few weeks ago, ICE agents conducted the 
largest operation of its kind, breaking up smuggling rings in 
Arizona that had transported 80,000 people into the United 
States illegally.
    So much has been done, much of it the result of actions 
taken by this Congress and the Congress immediately before it. 
But there is much work still to be done. We will continue our 
efforts to make the most of the resources that we have. We look 
forward to working with the Congress to further strengthen the 
border in the weeks and months ahead. And, Chairman Leahy, 
Senator Sessions, I look forward to addressing other concerns 
you may have, not just along the southwest border but along the 
northern border and in terms of interior enforcement and 
worksite enforcement as well. But I thought I would use my 
introductory time just to review all of the things that have 
happened along that critical part of our southwest border.
    Thank you very much for this opportunity to appear before 
you.
    [The prepared statement of Secretary Napolitano follows:]
    Chairman Leahy. Thank you, Madam Secretary. I know we are 
going to have a lot of questions about the southern border. At 
the risk of sounding parochial, let me go to the northern 
border.
    I live 45 to 50 minutes from the Canadian border, and 
Canada is Vermont's biggest trading partner. It is the largest 
trading partner for much of the country. I know you are aware 
of the situation with the Morses Line port of entry and the 
Rainville family farm. Just for people to know, Morses Line is 
in the province of Quebec. It comes into Vermont. It is a very, 
very small, traditional border crossing where people are used 
to going back and forth, visiting relatives and going shopping 
and so on.
    Now, the Federal Government believes that it needs to 
acquire 5 acres of land from the Rainville farm in Vermont to 
construct a new port of entry at Morses Line. I understand and 
appreciate the Federal government scaled back the size of the 
port from its initial design. But I question whether some 
resolution could be found using the current footprint of the 
part of entry. In other words, not expanding the port beyond 
the area it presently occupies.
    It seems the Government has initiated condemnation 
proceedings against the 5 acres of the Rainville family's 
farmland. I know this is an important part of our border, but 
also we have concerns in Vermont, not the least of which is 
preserving farms, but also preserving the integrity of our 
State.
    So I asked you in February if you could arrange public 
meetings between the Department and the communityover the 
Morses Line port of entry. I have heard since then from many 
concerned community members. They want more information.
    Will you commit to arranging a public meeting with the 
local community on this issue in the very near future, a public 
meeting in or along the border with Canada?
    Secretary Napolitano. Yes, absolutely, Mr. Chairman, and 
this is one of those things where we are trying to work with 
the owners to get down to the footprint. I believe it has 
actually been reduced from 10 acres to 4.9 acres in terms of 
what CBP has determined it needs to actually do the kind of 
port improvement there that--there is a certain minimum amount, 
unless you do it, you might as well not do it at all. So we 
will absolutely have one more community meeting, and as I said, 
we have been working there to minimize the amount of acreage 
involved.
    Chairman Leahy. And I understand the situation you have, 
but we have had Operation Stonegarden in Vermont, we have had 
the situation where we do have some pent-up concerns over 
border issues. I fully expect it is not going to be the way it 
was when I was a youngster and you would drive up for the day 
into Canada and back. Many of us have family members in Canada. 
I realize it is not quite as easy going back and forth, but 
Canada is a friendly country. There may be some unfriendly 
people that come into the country, but it is a balancing act 
that we have to do.
    I know that Alan Bersin, the new Customs and Border 
Protection Commissioner, has been to Derby Line, Vermont, to 
see things firsthand. I want to mitigate concerns when people 
get stopped tens of miles away from the border along our 
interstate, get stopped and have to prove their citizenship, 
people that have been driving back and forth on that road for 
decades. It is creating the animosity between our residents and 
the Federal Government that we do not need to have. I know that 
the men and women who work for the Federal Government are very 
dedicated, very hard-working, very professional. And I want to 
find ways to lower the tension that exists between the 
government and Vermonters, who are themselves very professional 
and very law-abiding with regard to the border.
    Secretary Napolitano. Indeed, Mr. Chairman. I appreciate 
any suggestions you have on that score so that we will continue 
to work with your office and work together. And as I said 
earlier, we would be happy to conduct another public hearing or 
have another meeting with the community up there where the 
Morses Line is.
    Chairman Leahy. Thank you. Now, let me move across the 
country to the new law in Arizona that makes it a crime to fail 
to carry immigration papers. It requires police to demand 
papers from any person the police have reasonable suspicion to 
believe is undocumented.
    I believe that States can pass whatever laws they choose, 
provided they are consistent with the Constitution. This law 
will be challenged on constitutional grounds. The President 
called the law misguided. He said it violates the basic notions 
of fairness that we cherish as Americans. When you were 
Governor of Arizona, you twice vetoed bills of this type.
    What do you do now with your Department with regard to the 
Arizona law?
    Secretary Napolitano. Well, first of all, the Justice 
Department is reviewing the Arizona law. It does not actually 
take effect until 90 days after the close of the Arizona 
legislative session, so it is not, in fact, in effect in 
Arizona, which permits time, I think, for the Justice 
Department to really look at whether the law meets 
constitutional safeguards or not.
    From an ICE standpoint and from a DHS standpoint, we have 
some deep concerns with the law from a law enforcement 
perspective because we believe it will detract from and siphon 
resources that we need to focus on those in the country 
illegally who are--those who are committing the most serious 
crimes, in addition to violating our Nation's immigration laws. 
We have focused on felonies, on felons, on felony fugitives, on 
gang members. That is where we have focused, for example, our 
287(g) task forces and the like.
    So we have concerns that at some point we will be 
responsible to enforce or use our immigration resources against 
anyone that would get picked up in Arizona pursuant to this 
law.
    Chairman Leahy. This also goes into the obvious question of 
a comprehensive immigration bill.
    Secretary Napolitano. Indeed.
    Chairman Leahy. Something that many of us worked on with 
former President Bush in a bipartisan way. There is a strong 
feeling that we need comprehensive immigration legislation just 
because it would reflect the realities of where we are today.
    Can we move forward on such legislation with the problems 
that are along the border, the murders, the killings, the drug 
cartels in Mexico? And I realize there are a lot of other 
immigration issues involving a whole lot of other countries 
besides Mexico. But can we do both things, secure our border 
and have comprehensive immigration legislation?
    Secretary Napolitano. Yes, and this in a way gets to 
something that Senator Sessions' opening statement had some 
implications. What is the relationship between securing the 
border and CIR, comprehensive immigration reform?
    In my judgment, we need to continue to put strong resources 
at the border and sustain them at the border. They need to be 
done in a strategic way, and it is a combination of 
infrastructure, technology, and boots on the ground.
    But the plain fact of the matter is from a numbers 
perspective, the numbers at the border have never been better. 
There have been some outrageous crimes--the Krentz murder, for 
example--but the overall numbers border-wide have never been 
better. We need to keep working those efforts, sustaining those 
efforts, but at the same time, comprehensive immigration reform 
should be in our sights.
    Chairman Leahy. Thank you. Thank you very much.
    Senator Sessions.
    Senator Sessions. I do believe that what we do and say 
here--often what we do is more important than what we say, but 
it sends a message around the world, and I am confident that 
for too long the message was as long as there was a willing 
worker and a willing employer, we did not care if people came 
into the country, even though that was in clear violation of 
the law of the United States. And this kind of confused message 
gets us into a real problem. This is why we have the problem 
today.
    What we have got to do first and foremost and what you must 
do, in my opinion, to be the kind of Homeland Security 
Secretary I would like to see and for President Obama to lead 
effectively on this issue is to make sure that the world knows 
the border is no longer open. It is not open. And if you come 
here, even if you get by--and it is going to be very difficult 
to get by. But if you succeed in getting by, you will not be 
able to be employed. And if you are apprehended, you will be 
promptly deported, and it is a lose-lose game for you. And the 
way to come to America is to apply and make application and 
apply and come legally. So this is so fundamental to me.
    With regard to the comprehensive phrase, that means 
amnesty, legalization, regularization or some form of fashion 
of it, basically. That cannot be done until the American people 
feel and those of us in Congress really feel that we have ended 
the open border idea and we have really made the kind of 
progress we need. And I think they have to be separate. I 
really do. I see Senator McCain saying the American people have 
spoken. They want border security first. And I think that is 
true, and I think that is good policy.
    So I just would say that to you with heartfelt belief that 
we can do better. You can make this border a lawful border. But 
you have got to continue to improve on the progress that has 
been made and continue to drive the numbers down, and as the 
numbers go down, you have more officers per illegal entrant, 
and you can do an even more effective job with the ones that 
enter. And as we do, we are going to see more violence, also, I 
think, as we get more effective at the border, and you will 
have to be prepared for that. But you have an opportunity to 
make some real progress on this.
    Tell me about Operation Streamline that was begun before 
your tenure. It is deployed at five of the nine sectors. It 
seems to result in a substantial reduction in recidivism and 
re-entries. It is a situation in which there at least is some 
prosecution and conviction and short detention before 
deportation. Do you believe that has proven to be effective? 
And why haven't you expanded it?
    Secretary Napolitano. Yes, Operation Streamline, for those 
who are not familiar with it, does provide for a short period 
of detention and incarceration prior to deportation, removal 
from the country. We have continued it where it was. The plain 
fact of the matter, however, Senator, is that even a short 
period of detention, now you are implicating the court system, 
the marshals for transportation of individuals, the detention 
system in facilities along the border. And so it has to be a 
coordination between the Department of Homeland Security and 
the Department of Justice.
    It is my understanding that the Department of Justice is 
looking at Streamline from their resource perspective and the 
possibility of whether it can be expanded.
    Senator Sessions. Well, I would say it has--those same 
concerns were raised initially, and the number of re- entrants 
and illegal entries went down substantially in those districts, 
therefore relieving other burdens and costs on the system. So I 
do not think that is a particular good solution. Are you 
working to expand it? Would you like to see it at all border 
sectors? Do you believe it has proven to be an effective 
policy?
    Secretary Napolitano. Well, in the sectors where it is, 
there also have been additions in other areas, so there is--we 
could have a debate about whether it is Streamline that is 
responsible or more Border Patrol officers or other things that 
have been deployed. But let me just say this, Senator Sessions: 
I believe that Streamline should be part of our toolbox of 
things that we use at the border, and there needs to be a 
variety of things that we use at the border to get the most 
effective enforcement strategy. And so, really, it is a 
resource issue more than anything else.
    Senator Sessions. Well, it is a policy decision, and if you 
make a decision to expand it, you would ask for the resources 
necessary to expand it, and in the long run, the data tends to 
show that this kind of coordinated effort results in a 
substantial reduction of illegal entries. And if you can spread 
that across the entire border, I think we would have another 
major progressive step. I hope that you will work on that.
    Secretary Napolitano. Senator, if I might just interject, 
it is not just spreading along the entire border. It is being 
able to do more even in the sectors in which we have deployed 
it, because we do not and cannot cover--the Department of 
Justice, the court system in that area of the country cannot do 
100 percent of the cases in Streamline even in the sectors to 
which we have already deployed it. So it is not just going 
across to all the sectors. It is really looking at the burden 
on the court system and the marshals system in those Southern 
District courts. And so I would just make--it is a nuance, but 
it is an important one.
    Senator Sessions. I do not doubt that, but in areas where 
it is working, it has had good results, and I believe they 
justify the effort to figure out what it takes, and I hope that 
you will ask for the resources necessary.
    Tell me about local law enforcement. It seems to me that a 
local law enforcement officer has the authority--and I believe 
court cases have established this--that if they identify a 
person illegally in the country, they have the power to detain 
them, even though ultimate deportation or prosecution would be 
in Federal court. Do you agree with that?
    Secretary Napolitano. Senator, actually there is a--that is 
something, I think, that is being reviewed by the Justice 
Department now, whether there is inherent authority by any 
local law enforcement officer to detain. So let me just say 
that, in my judgment, what we need to be doing is working with 
local law enforcement so that you have combined and leveraged 
Federal resources with local, and then you do not actually have 
to--that question is moot because you always have a Federal law 
enforcement officer involved.
    Senator Sessions. Well, the problem with that is there is 
just not enough Federal law enforcement officers. And if a 
police officer in a small town in Texas or Alabama or New York 
captures somebody that they find to be illegally here, you do 
not have a Federal officer with them. At one point we had three 
or four Federal officers for the whole State of Alabama, and we 
have got thousands of local law enforcement officers who can 
arrest a U.S. Senator if they violate the city's ordinances. 
And I try to behave when I am in----
    Secretary Napolitano. I was going to make a comment there, 
but in any event, in some of those areas, this is really where, 
for example, 287(g) can be useful.
    Senator Sessions. That is correct.
    Secretary Napolitano. And let me, if I might, provide an 
example. We recently had a situation in southern Missouri where 
that very issue arose involving a construction worksite, and 
the individuals were picked up by police who did not have a 
287(g). But as we reminded them after the fact, the Missouri 
State Police do have a 287(g), and because they have that and 
have that appropriate coordination and oversight, they can deal 
with some of those situations.
    And so while I know 287(g) has come under criticism by 
many, there are, I think, some appropriate uses for it to 
leverage Federal authorities with local law enforcement.
    Senator Sessions. Well, I agree 287(g) provides a great 
opportunity. I do not think it is being aggressively used and 
not effectively used, and that is my concern. I hope you will 
reconsider.
    Thank you.
    Chairman Leahy. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Madam Secretary, I have been noodling your own statistics 
while this discussion has been going on, and let me tell you 
what I find. What I find is really an amazing display of 
increased assets at the border when you look at them. To raise 
Border Patrol agents by 10,000, from 10,000 to 20,000, in 5 
years is pretty amazing, and resources are doubled and tripled 
in other areas. It is very impressive.
    Where I look at this is in the criminal aspects of what is 
happening along the border, and I wanted to ask you to comment 
about this, the number of arrests, the number of drugs and guns 
seized. You have put out some of the numbers in your opening 
comments: the quintupling of border liaison officers now from 
just 10 to 50. Yesterday I spent some time with the DEA talking 
with them about this.
    What it appears to me is that there is increasing drugs, 
increasing smuggling still along the border, despite the fact 
that a lot of the statistics show that Department Homeland 
Security has moved in the right direction. So there is almost a 
disconnect between all these agents and the increased 
criminality.
    The signing of the bill in your State is very perplexing. I 
come from the State with the largest number of immigrants. I do 
not support the Arizona law. And it is hard to understand, but 
I suspect it rests around people's perception of increased 
violence.
    Would you comment?
    Secretary Napolitano. Yes, Senator, and let me, if I 
might--I think your question goes to the whole issue of the 
drug cartels in Mexico and the critical importance to the 
country of our continued efforts with Mexico to break them up, 
because they literally have fingertips that go into communities 
all over the Nation. And because the fight is being taken to 
them both on the southern side of the border and the northern 
side of the border, it is resulting in an environment in 
Mexico, and in northern Mexico in particular, that is more 
violent.
    There is a concern among people who live just north of that 
in the southern part of the United States, will that spill 
over? And we have not seen generally across that border a wave 
of spillover violence. Indeed, the criminal statistics in 
cities like El Paso would suggest it is one of the safest 
cities in the United States. But what we want to do is prevent 
cartel violence in that fashion from spilling over into the 
United States.
    The problem in Arizona is that they are an exception to 
that rule, where in Phoenix there have been over the last years 
a record number of stash houses for illegal immigration and 
drugs and the like, and battles between kind of the end 
distributors, as it were, for these different cartels in 
Phoenix.
    And so even though statistically Arizona is better than it 
was several years ago, nonetheless, it is a place where there 
is a perception that there is spillover violence.
    Senator Feinstein. Let me ask you a question. Smuggling 
boats have become more common off the coast of southern 
California. These boats smuggle both people and narcotics 
across the border and onto public beaches in San Diego and 
Orange County. According to your Department, the San Diego DHS 
Maritime Unified Command saw a more than sixfold increase in 
maritime drug interdictions in the Pacific waters extending 
from the southwest border in fiscal year 2009 compared to the 
amount seized in fiscal year 2008. They tell us that, despite 
robust efforts, only 25 to 30 percent of these vessels are 
being discovered by U.S authorities. It is our understanding 
that more maritime patrol aircraft with sensors able to detect 
these vessels may be helpful.
    What do you know about this? And what are you doing about 
it?
    Secretary Napolitano. Actually, as efforts on land are 
successful, you see the expansion into maritime, both in the 
Pacific and in the Atlantic. And so with the Coast Guard as 
primary and lead, we are looking at what should our strategy 
be, how do we intercept these both on sea and with aerial 
surveillance. We are seeing an increased use of the 
submersibles to transport drugs into the continental United 
States. Those are difficult. We are also seeing the use of the 
ultra lights, which are these very small aircraft, to try to 
ping, if I can use that phrase, you know, drugs across the 
border.
    So all of those are resulting in us constantly looking at 
do we have the right deployment, the right equipment, the right 
resources where they need to be, emphasizes our need for 
absolute flexibility to move resources around very, very 
quickly, but also, I think, evidence that statistics are one 
thing, but we are actually having an operational impact on 
land.
    Senator Feinstein. I wanted to go to one other thing before 
my time is up, and this is an area where I have a grievance, 
and I hate to bring it up here. But I wrote you a letter about 
it a month ago and did not get an answer, so I am going to 
bring it up here.
    In 2005 and 2006, FEMA awarded three grants to the 
University of California-Berkeley to complete hazardous fuel 
reduction projects in the hills surrounding the campus. This is 
a fire-prone, volatile, potentially catastrophic effort. 
Despite the urgency of this project, FEMA has taken 58 months 
to reach the relatively simple conclusion that it required an 
environmental review.
    I have met with the people. The university has come in. I 
think it is just dreadful that you cannot move a small grant to 
a university in 5 years. What do you know about it? What is the 
problem?
    Secretary Napolitano. What I know about it is I am very 
unhappy that this has taken that long. I have asked FEMA to 
work with Berkeley to resolve this. The substantive issue is 
the environmental issue, but this involves, I suspect, how to 
handle those large eucalyptus trees that ring the campus and, 
of course, the fires that occur in the hills around there. And 
so I have asked FEMA to light a fire under itself, get together 
with the folks at Cal Berkeley and see what we can do.
    Senator Feinstein. My time is up, but would you follow up 
on it? Because it just falls between the cracks.
    Secretary Napolitano. Got it.
    Senator Feinstein. I appreciate that, and I am not going to 
let you off the hook.
    Secretary Napolitano. Got it.
    Senator Feinstein. Thank you.
    Mr. Chairman, thank you.
    Chairman Leahy. Thank you.
    Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman. I appreciate 
you, Madam Secretary, and the work that you are trying to do 
and are doing.
    As you know, Utah is the crossroads of the West, and we 
have people coming in and out of there all the time, and we 
have appreciated the extra help that you have provided. I think 
it benefits our country as a whole.
    As we talk about the 12 to 20 million illegal immigrants in 
the United States, I think of the immigrant community in my 
home State of Utah, those who have followed the law, waited 
their turn, got in line, sometimes even up to 20 years, in 
order to legally come to the United States. Now, it seems to me 
their efforts to abide by our laws would be completely 
discounted by amnesty or so-called pathway to citizenship.
    As a former U.S. Attorney and Governor of Arizona, do you 
believe amnesty for illegal aliens in the United States is the 
only way we can solve our illegal immigration problem? And does 
this not go against the very principles of our legal system?
    Secretary Napolitano. Senator, I do not believe amnesty is 
part of the solution. However, I do believe that what is being 
looked at and reviewed for those already illegally in the 
country in terms of how they get right with the law is not 
amnesty. It is a series of sanctions that they would have to go 
through, and I also believe that what is being examined would 
not leapfrog them ahead of those who are already in line to get 
their citizenship.
    Senator Hatch. In other words, you feel that they would 
have to get in line like anybody else and have to comply with 
the laws. Would they have to go back to their own country under 
your view?
    Secretary Napolitano. In my view----
    Senator Hatch. In order to get in line.
    Secretary Napolitano. In my view, no. In my view, that 
would be a huge administrative task to have people have to go 
back to their countries, re-register with embassies, and cross 
legally. In my view, what we need is a system where individuals 
pay a fine, register, provide us with their biometrics--we want 
to know who they are; we want to increase that capacity--learn 
English, have paid their taxes, and perhaps pay a sanction in 
addition on their taxes themselves as a fine for breaking the 
law.
    Senator Hatch. Would you ask at the outset if a system--I 
am sorry. I talk fairly softly. If a system is finally arrived 
at, Congressionally or otherwise, would you first ask whether 
they want to be citizens? Because my understanding is there is 
a significant number who would not want to be citizens. They 
just want a job. They want to be able to support their 
families. But would you think that part of a process of 
resolving these problems would be to ask them whether they want 
citizenship or just want to be a guest worker?
    Secretary Napolitano. That I think is something that is 
part of the dialog we need to have with the Congress. To me, 
from an enforcement perspective, in my judgment, the first--you 
know, the goal is to have some mechanism by which those 
illegally in the country are required to come out of the 
shadows, to register, to give us their biometrics, to have a 
clean criminal and tax record, to pay a fine for breaking our 
laws. You know, there can be--I could see different paths taken 
by those who wish to simply remain versus those who seek 
citizenship. That is something that I think the Congress needs 
to debate.
    Senator Hatch. Now, you have been Governor of Arizona, and 
you have seen the recent legislation that the current Governor 
has signed. As I view that legislation, of course, I believe 
States do have rights to try and solve their problems. The 
question is they have to do it constitutionally.
    Now, as I view that law, it basically says they have to 
have reasonable reason to detain anybody, and not only that, it 
should not be based upon ethnicity or gender, et cetera.
    What is your opinion concerning the law there in Arizona? 
And what would you like to see done about it?
    Secretary Napolitano. Well, as I said earlier, Senator, 
that law does not take effect until 90 days after close of the 
Arizona legislative session. So I think the first thing that 
needs to be done is for the Justice Department to review 
whether the law is constitutional under the laws governing the 
Supremacy Clause and under the laws governing preemption and 
the case law governing preemption. So that I think really, as 
you suggest, is the first thing that needs to be done: Is it 
constitutional or not?
    Senator Hatch. Yes. And do you want to venture your 
personal opinion on whether it is or is not?
    Secretary Napolitano. Not at this hearing, sir.
    Senator Hatch. OK. Now, it is my understanding that, to 
date, $761 million has been authorized for the Secure Border 
Initiative Network, with the actual cost of $625 million. In 
March, you decided that the virtual fence on the border with 
Mexico was such a failure that it no longer deserved continued 
funding. Instead, you have directed investment in commercially 
available technology to secure our border from illegal entries. 
Unfortunately, in my opinion, the program's failure is at the 
taxpayer's expense.
    Has SBInet yielded any benefit to the taxpayer?
    Secretary Napolitano. There are two blocks, Senator, that 
are now at the phase--well, the first block, called the Tucson 
block, is at the phase of operational testing, and I am told 
that that initial testing now looks promising. However, for the 
amount of money spent and given alternative and other kinds of 
technologies that are almost off-the-shelf available, I have 
really put this thing to a severe or a serious analysis as to 
whether we should build out the rest of it or whether those 
technology dollars should be deployed for other kinds of 
technologies.
    Senator Hatch. When combined the pedestrian fence, how 
effective are functional portions of the virtual fence in 
basically stopping the flow of illegal immigrants from entering 
the United States? And do you think we should build more 
reinforced physical fencing along the southwest border?
    Secretary Napolitano. You mean like double or triple 
fencing, that sort of thing?
    Senator Hatch. Right.
    Secretary Napolitano. Yes, I have asked the CBP to look at 
that very question and also a related question whether some of 
the existing fencing that is single layer should be double or 
triple. And they have promised to get back to me soon with 
their look at that.
    Senator Hatch. Well, thank you, Madam Secretary. I 
appreciate your testimony here today.
    Chairman Leahy. Thank you very much.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for this very 
important hearing. Thank you, Madam Secretary.
    I am going to turn to Minnesota for a second. Four years 
ago, ICE carried out actions in meatpacking plants in Minnesota 
and in five other States. One second grader in Worthington, 
Minnesota, came home that night to find his 2-year-old brother 
alone and his mother and father missing. For the next week, the 
boy, a U.S. citizen, no less than you or I, stayed at home 
caring for his brother while his grandmother traveled to 
Worthington by bus to care for them.
    Current ICE guidelines allow States social service agencies 
to interview new detainees to help identify if there are 
abandoned children. This is important because many detainees 
are afraid to tell ICE officials that they have children at 
home, afraid that they may be detained as well. But these 
guidelines only cover enforcement at worksites and target 25 or 
more individuals.
    Do you have any plans of expanding these guidelines to 
other smaller enforcement actions?
    Secretary Napolitano. Senator, let me check with you, but I 
believe informally, if not formally, that is the principle on 
which we act to make sure that any child--and as you know, we 
have changed how we do worksite enforcement, and that will 
probably be the subject of some other questions. But we have 
changed how we do enforcement actions at----
    Senator Franken. But that has not occurred formally, has 
it?
    Secretary Napolitano. Let me see if it has actually been 
put on paper.
    Senator Franken. OK. Thank you. Get back to me on that.
    Secretary Napolitano. Indeed.
    Senator Franken. As you mentioned, your State of Arizona 
passed--and as members have mentioned--a new law requiring law 
enforcement officers to verify the immigration status of every 
individual they encounter if they think the person might be 
undocumented, and it does not matter if it is a victim of 
domestic violence, an injured person in a traffic accident. No 
matter what, their status will be checked.
    You have spoken about the constitutionality of the law. I 
want to ask you a separate question. Can you tell me what 
impact you think this will have on the relationship between law 
enforcement and the communities that they serve?
    Secretary Napolitano. Indeed, Senator, and let me be very 
clear. The constitutional analysis is a separate analysis from 
whether the law is misguided or not. And the constitutional 
analysis is being done at the Justice Department. I have 
already said--and my record will demonstrate--I think these 
kinds of laws are not value-added to law enforcement. There is 
a reason why most law enforcement groups, chiefs of police and 
the like, oppose them. And your question relates to one of 
those reasons, which is the undue barrier it puts between crime 
victims, human-trafficking victims, for example, a growing 
problem that we are trying to deal with in the United States, 
and law enforcement.
    So constitutional or not, there are some real law 
enforcement reasons why laws like that are misguided.
    Senator Franken. Thank you. I noticed in both your written 
testimony and your testimony here today that you are using more 
K-9 teams along the border to detect both currency and weapons. 
When I was at the Minneapolis-St. Paul airport a couple months 
ago--it was actually not long after the Christmas incident--the 
issue in the public discussion was these full-body scanners. 
And I talked to the director of the airport there, and I asked 
if dogs might be more effective in detecting explosives. And 
the director of the airport said that, in fact, they--he was 
very excited about the fact that they were getting some dogs. 
And he was just very happy for the reason that I had indicated.
    Could you speak for a moment to the effectiveness of dogs 
in homeland security, both at airports and along borders, and 
whether we are going to be scaling up their use?
    Secretary Napolitano. Senator, I love dogs. Dogs can be 
trained to----
    Senator Franken. Me, too. Me, too.
    Secretary Napolitano. Well, dogs can be trained----
    Chairman Leahy. We all love dogs.
    Secretary Napolitano. We all love dogs. Well, dogs can be 
trained to sniff narcotics, bulk cash, arms. We are using 
them--explosives, and we are using them in all those ways, in 
airports and at ports of entry along the land, in the land 
ports. And the President's budget and our internal deployment 
of resources is increasing the number of dogs as fast as we 
can.
    Senator Franken. Good. You mentioned human trafficking. A 
recent Kansas City Star article found that many undocumented 
victims of trafficking are being deported before they are 
screened for trafficking. I find this disturbing. These people 
are victims of horrible crimes, but we are not even taking the 
time to figure that out and to prosecute the people who traffic 
them.
    How are you making sure that potential trafficking victims 
are identified before undocumented individuals are deported? 
Overall, how does the Department of Homeland Security promote 
cooperation between ICE, the DOJ, the FBI, and community 
organizations to build trust and promote successful 
prosecutions of human traffickers?
    Secretary Napolitano. Senator, we have embarked on a very 
significant anti-human-trafficking campaign. A signal part of 
it is training law enforcement and providing law enforcement 
training on how to distinguish or detect the symptoms of 
trafficking, find victims, and deal with victims. Indeed, I 
just taped part of a law enforcement training video just this 
week that will be used. Demi Moore will also be in the video. 
We will probably get confused, but that is another question.
    Senator Franken. You should just put a little chiron or 
super underneath.
    [Laughter.]
    Secretary Napolitano. I think so.
    Senator Franken. To make sure that does not happen.
    Secretary Napolitano. But that is part of our program. That 
program will be offered also at FLETC, which is where we train 
Federal law enforcement officers. They will be being trained on 
some of these issues about human trafficking, and we are going 
to embark over the course of the year on a public campaign on 
how to tell the difference, and also how human-trafficking 
victims can get access to law enforcement.
    Senator Franken. Well, thank you, Madam Secretary.
    Mr. Chairman, thank you.
    Chairman Leahy. Thank you.
    Senator Kyl.
    Senator Kyl. Thank you. Welcome, Madam Secretary.
    Let me just begin, I am going to focus on the southwest 
border, particularly Arizona, as you might expect. I thought 
Senator Feinstein made an important point earlier when she 
noted that, at least over the last 5 years, we have devoted a 
significant amount of resources to trying to control the border 
and enforce the law, and yet troubling that progress seems to 
be somewhat uneven. I think overall we have made significant 
progress. Part of that is undoubtedly due to the recession. One 
of the big concerns is when we get back to a need for more 
employment, what will happen. And I think everybody is 
concerned about that.
    But I suggest that the employment of the various things 
that you have mentioned here do work. The question is: Have we 
done enough of it yet? I think we know what works, and what I 
would like to do is just focus on the three key elements of 
what I think works. It is a combination of things. It is having 
adequate resources in terms of personnel, particularly Border 
Patrol; some degree of fencing, which is a big assistance to 
the Border Patrol; and, third, detention of violators, 
Operation Streamline, which I will focus on in a moment.
    I think we can conclude this by a tale of two sectors, both 
in Arizona--the Yuma sector and the Tucson sector. Now, to be 
sure, the Tucson sector is large by some number of miles, 
although they both have proximity to interstate highways. One 
of them, the Yuma sector, has reduced illegal immigration to 
virtually nothing, while the other, the Tucson sector, 
represents about half of all of the illegal immigration in the 
entire United States, right through Nogales, Tucson, Douglas, 
the other cities along the border there.
    What is the difference? In the Yuma sector, we have now 
completed the double fencing, in some cases even triple 
fencing. It is tremendous. I know your agents all believe it 
has done a lot for them. Two, they have an adequate number of 
Border Patrol. By the way, there is some concern that because 
they are short in other sectors, some of them might be 
transferred, and I hope you can commit that they will not be, 
that now that we have Yuma under control, we will keep it that 
way. And, third, Operation Streamline, which over the course of 
time meant that anybody that crosses the border will go to 
jail. And because a fair number, at least 10 and upwards of 15 
or 16 percent, are criminals, obviously that is a good thing if 
they go to jail. For those who want work, they cannot make 
money while they are in jail, so they tend not to want to cross 
in those areas where they know they will go to jail. And that 
is exactly what they know will happen in the Yuma sector.
    So the combination of those three things has worked to 
bring immigration down, illegal immigration down in the last 5 
years. The number was about 118,500 apprehensions 5 years ago; 
it is now down to about 5,000 so far this year. Tremendous 
progress. Whereas, in the Tucson sector, we still have about 
241,000 apprehensions so far this year. Now, that is down from 
what it used to be, but still, obviously, far too many.
    We know that we need additional fencing in the Tucson 
sector. I know that your agents, for example, would like to 
replace--and I think you alluded to this a moment ago maybe 
generally--to replace the old fencing with a fence that they 
can see through because it is dangerous for them right now and 
not very effective. We need additional personnel there, and the 
Operation Streamline is virtually non-existent in the Tucson 
sector.
    Madam Secretary, you are right that resources are a key 
issue, and it is significantly a matter of court resources--
judges, clerks, U.S. marshals, and so on. But I think Senator 
Sessions was right, that it is not just a matter of resources 
but of our will to make it work. And in that regard, we have 
requested--and as you know, the Congress is supposed to receive 
a study or was to receive it on December 27th from the 
Department of Justice and the Department of Homeland Security 
detailing what would be necessary in the way of resources and 
what the costs would be to effectuate a more complete Operation 
Streamline in key areas of the border.
    Now, I have got three basic questions here. In the 2011 
budget--let us just talk about Border Patrol--first, there was 
going to be a cut of 187. You then since asked them to amend 
that so that there would be no cut, but no increase either. In 
the 2010 conference report, there is a requirement that the 
northern border increase the number of agents from 1,525 to 
2,212. You have said that you would maintain a force of 17,000 
along the southern border. Actually, it is 17,400 right now.
    Question: How can you increase the number on the northern 
border, keep the number on the southern border the same, with a 
budget that does not increase any agents?
    Secretary Napolitano. Senator, first of all, going to your 
list of three, I would add a fourth, and that is technology in 
addition to infrastructure, Streamline, and personnel.
    Senator Kyl. By fencing, I include technology in that with 
all of the cameras, the sensors, the radars that are----
    Secretary Napolitano. There is the mobile system.
    Senator Kyl. Sure. You bet.
    Secretary Napolitano. They are somewhat different.
    The answer is--and we can provide your staff at the 
briefing that is, I think, set for later this week--moving 
people who are in non-on-the-line positions to on-the-line 
positions. It is in reducing travel costs so we can deploy 
those costs to personnel. It is in really looking at how we 
move folks around.
    Let me just suggest, however, Senator, it is very difficult 
in the end when there are mandates that you have to have X here 
and Y there, because people move and the immigration moves.
    Senator Kyl. Right. If I could just interrupt because I 
want to get to the other two questions. My understanding is DHS 
helped to write the law that requires the additional troops on 
the northern border. I think we need more Border Patrol. I hope 
that you will ask for them. Congress will provide them if you 
do.
    Second, on fencing, the budget has enough fencing for 1 
mile of physical fence. That is inadequate, isn't it?
    Secretary Napolitano. I am sorry. I could not hear your 
question.
    Senator Kyl. The 2011 budget includes enough funding for 1 
mile of physical fence. We need more than that, do we not?
    Secretary Napolitano. Well, Senator, it includes the budget 
to complete what Congress has originally before it. We can and 
should look at what other areas could require fence, but I also 
think we need to be looking at what areas need new kinds of 
fence for additional----
    Senator Kyl. Yes, of course. You yourself testified, 
though, that--I forgot the numbers, but there would at least be 
30, 40, 50, or 60 miles of fencing yet to be concluded under 
the original Congressional intent.
    Secretary Napolitano. Well, the original Congressional 
intent was to match up with the DHS operational plan, which was 
700 miles. What has happened is as fencing has gone in with 
other technology, the 700 miles has become 653.3, or right 
around there, and we are just about at that number.
    Senator Kyl. Well, we know we need more fencing in the 
Tucson sector, and I hope that that will be part of your 
recommendation. Let me, because my time is up now, just mention 
on Operation Streamline, the whole point here--you said it is a 
matter of resources. Senator Sessions said it is a matter of 
policy. It is both. I think our policy should be to expand it. 
We have asked you to tell us what resources are necessary. 
Please do that. If you do, I suspect Congress will provide 
them.
    Until that is done, we are going to continue to have 
numbers like we do in the Tucson sector, and you are going to 
continue to have efforts like the Arizona law because the 
people realize we are not doing everything that we could do to 
stem illegal immigration through our border.
    Secretary Napolitano. Senator Kyl, I appreciate that. As 
you know, Streamline, I think, is an important part of a 
toolbox of things that need to be done. I am not sure that I 
would equate Streamline with the Arizona law. I think there are 
a lot of other reasons for that. But I will certainly get with 
the Attorney General to report back to you.
    Senator Whitehouse. [Presiding.] All right. Just to recap, 
since I have taken the chair, Senator Schumer will be next. 
After that, Senator Grassley has the right, but if he is not 
available, Senator Graham. And we will bring Senator Grassley 
back into the rotation. And then Senator Cardin on our side and 
Senator Cornyn.
    Senator Schumer.
    Senator Schumer. Thank you, and I want to thank you, Mr. 
Chairman. You have done an excellent job so far chairing this 
hearing, as usual.
    [Laughter.]
    Senator Schumer. I want to thank you, Secretary Napolitano. 
You have done an excellent job so far as well, and you have a 
little longer tenure than Chairman Whitehouse has as Secretary.
    Anyway, my first question relates to something that is 
bothering me, and that is the Securing the Cities program. 
Securing the Cities is a federally funded effort to protect New 
York City from the threat of a makeshift nuclear device or 
dirty bomb. Every time New Yorkers hear about the threat of a 
potential terrorist attack from al Qaeda or other extreme 
groups, of course, it sends chills down our spines. Everyone 
remembers 9/11. I think of the guy I played basketball with who 
died or a businessman who helped me on the way up or a 
firefighter who lived in my neighborhood who I worked with 
closely.
    So this is really important, and New York has taken 
extraordinary efforts on its own. Ray Kelly has done a great 
job to make sure that we are never attacked again, and I know 
that obviously is mostly a Federal responsibility.
    But one of the things that we have done is set up this 
Securing the Cities program, and it provides New Yorkers with 
the reassurance that their Government is working hard to 
protect them from a radiological or dirty bomb. It uses the 
available technology at all the bridges and tunnels and major 
highways to prevent that from being brought into the country. 
It is expensive. And we already in New York shoulder far too 
much--an unfair amount of the burden in protecting our city 
from terrorism.
    For instance, I live in Brooklyn. We have to station police 
officers 24/7 on the Brooklyn Bridge because it is mentioned--
it is now public; we are not giving anything away--as a target 
for terrorist attacks.
    And so I was truly upset when, for the second year in a 
row, the President eliminated funding for Securing the Cities 
in the fiscal year 2011 budget. It would be a tragedy. The 
program has now reached a critical near-operational stage. The 
New York Police Department has developed a fully operational 
mobile detection program and completed a substantial amount of 
work toward putting in place the radiological defensive ring 
around Manhattan and the city.
    Without continued investment, all this work will go down 
the drain. This is obviously important, and I do not understand 
why OMB zeroed this out. I recently requested $30 million in 
appropriations for it, and I would like to get your support for 
this program. You are head of Homeland Security. You know the 
dangers of a dirty bomb. You know New York is far and away the 
No. 1 target. This idea, well, we will let everyone apply and 
see who should get some money, it does not work because we have 
to plan. And this year-to-year existence does not allow long-
term planning. It does not allow investing in things that cost 
more in the second year and the third year. I thought we had 
been through this fight last year when we eventually got some 
money, but it took a lot of work.
    So what is going on here? Why the heck would OMB zero it 
out? What can we do to get it restored? And can we have your 
support?
    Secretary Napolitano. Yes, Senator. If I could get myself 
into the head of OMB, I believe that their reasoning is because 
there had been 50-some-odd million appropriated in fiscal year 
2009 and 30-plus million of that still was yet to be drawn 
down, that there did not need to be another tranche of money 
added to that. I am just telling----
    Senator Schumer. I know. I----
    Secretary Napolitano. I am speaking as OMB.
    Senator Schumer. I had long talks with Peter Orszag. The 
money is all accounted for. We know what it will be drawn down 
for, but you cannot say you have to get it down to zero before 
you get more money as you are negotiating contracts and 
figuring out what to do with it, and that is the stupidity--
that is what I would call it--of what OMB is saying. They know 
that is not good budgeting. They know that you should not let 
something go to zero and then start all over again when you 
have an ongoing program that takes several years to put 
together, 1 year building on the next.
    Secretary Napolitano. Senator, I will be happy to re-engage 
with OMB on this, but there is another point your question has 
in it that I think is very important for the Department as a 
whole, and that is, being able to look at how grants are done 
in a way that is more than year to year to year to year, but to 
really look at them structurally in terms of how cities and 
States really operate and what needs to be done there. That is 
something that I have asked our folks to begin really looking 
at. The current methodology may not be the best kind of 
methodology, but I will be happy to re-engage OMB.
    Senator Schumer. Can you help us?
    Secretary Napolitano. I will be happy to re-engage OMB.
    Senator Schumer. In a positive way?
    Secretary Napolitano. In a positive way.
    Senator Schumer. Thank you. I consider that good enough to 
say you will help us, so thank you.
    All right. And I am not asking you to do it publicly, 
although I just did.
    [Laughter.]
    Secretary Napolitano. What else do you need?
    Senator Schumer. Yes. Well, I have got a few other items 
here.
    Secretary Napolitano. Yes.
    Senator Schumer. Northern border strategy. My friend 
Senator Kyl was talking about the southern border. When we are 
sitting on the northern border, we think the southern border is 
getting most of the resources and attention, and I understand 
the problem of drug interdiction across the southern border is 
real. But as you know, the numbers for Canada are going way up. 
I think the number of arrests in New York for crack and cocaine 
that has come in from Canada is in large multiples. I do not 
remember the numbers, but almost like 1:18 or 1:10 compared to 
2, 3 years ago.
    And so we have set up--and this has worked out well--
HIDTAs, the High-Intensity Drug-Trafficking Areas, and we have 
several counties in upstate New York that are part of this. 
What do you think of HIDTA? What can we do to further prevent 
drug interdiction on the northern border? And to begin with, do 
you agree it is a growing and serious problem?
    Secretary Napolitano. Yes, and I would add methamphetamine 
to that mix.
    Senator Schumer. Yes, for sure.
    Secretary Napolitano. I used to be Chair of a HIDTA. I used 
to be Chair of the Arizona HIDTA. I believe when, well done, it 
can be an effective way of leveraging resources and also 
leverages Federal, State, and local monies. And so the answer 
is--what do I think of HIDTAs? On the whole, I think HIDTAs are 
very effective.
    Senator Schumer. Can we get any more help? There is a cut 
in the HIDTA for the northern border.
    Secretary Napolitano. Let me take a look at it.
    Senator Schumer. Would you? Thanks.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Grassley.
    Senator Grassley. Thank you very much, Madam Secretary. One 
thing I wanted to say, and then I want to read a statement 
about a bill I have introduced and not ask you to comment on 
either one of my first two statements. Then I will go to 
questions.
    No. 1, I just came back from the spring break with 24 town 
meetings, and one of the strong messages that came through was 
people irritated because they feel that the immigration laws 
are not being adequately enforced. And I just want to bring 
that message back to you.
    Then the second point I would make in regard to the 
Christmas Day bomber attempt. It highlighted the need to review 
our visa policies, especially how our agencies handle visa 
revocations when alarming information is provided authorities. 
You, Madam Secretary, have the authority to revoke a visa to 
any individual who is a threat to this country. Revocations are 
done frequently. However, if the foreign national makes it to 
our U.S. soil, there is concern about that person accessing our 
court system and challenging revocation.
    So I introduced a bill that would treat visa revocations 
similar to visa denials because the right of that person to be 
in the United States would no longer be valid. My bill applies 
the same standard for an individual on U.S. soil who should not 
have been granted a visa, limiting their rights to judicial 
review of such a decision. The Christmas Day bomber reminded us 
that, despite our best efforts, foreign terrorists can obtain a 
visa and make it to the United States.
    Given this vulnerability, I hope that you would look at and 
view judicial review for visa revocations for known terrorists 
on U.S. soil, that if they should not have been here in the 
first place, they should not have access to our courts. And I 
would hope that you would agree that a change in law, if it is 
needed and you cannot do it on your own, that the visa 
revocations would not be reviewable in a court and that people 
who wish to harm Americans could be deported immediately.
    Secretary Napolitano. Two things, Senator Grassley. One is 
I would like to offer to give you and your staff the most 
current numbers on immigration enforcement, because I think 
there is a difference between perception and reality. The 
enforcement numbers have never been more robust in terms of our 
Nation's immigration laws, and so I think that would be helpful 
when you have town meetings to actually provide the actual 
numbers.
    Second, I would be happy to look at your proposed 
legislation.
    Senator Grassley. OK. Thank you.
    Now, I am grateful that there has been a lot more attention 
to the problems of the H-1B visa program. I applaud your 
Department and Director Mayorkas for working to eliminate 
abuses by employers and stop third-party placements, so our 
success in highlighting the problem with the H-1B visa program 
has led some to seek other avenues to enter and remain in the 
United States.
    So this is how I see it. I see companies now resorting to 
the L visa, a program that allows workers from one company to 
work in their branches in affiliates in the United States. It 
is understandable why companies would go around the H visa and 
use the L. There are no wage protections, no annual numerical 
limits, fewer obligations on employers, and, thus, fewer 
protections for American workers.
    The Inspector General found problems in 2006 with the L 
visa program, stating, ``It is vulnerable in several 
respects.'' Department of Health and Human Services agents 
would agree with the Inspector General, so I would give you a 
few examples. One case showed that an individual petitioned for 
himself, came in on an L visa, created a shell company that did 
not exist, and thanks to a site visit, was obviously not doing 
business at the claimed address. Another case showed that a 
petitioner never worked at the foreign affiliate, forged 
documents to enter our country, and the office he claims to be 
working in in the United States never existed. Another case 
showed that managerial experience, while required, was not a 
prerequisite for visa issuance. In fact, an individual from 
Turkey was running a pizza parlor, claiming to supervise two 
employees, and I am pretty sure that you do not--pizza would 
not qualify for an L visa.
    So questions. Let me ask five questions kind of related. 
Fraud Detection and National Security Directorate is working on 
a report on the L-1 visa abuse. Could you tell me if that has 
been finished? And can you share that information with me? Let 
me stop there on those two questions before I go on to the 
other two.
    Secretary Napolitano. Sitting right here, Senator, I do not 
know the answers to those questions, but I will get that to 
you.
    I will say that Director Mayorkas and his group have really 
been working on making sure those visa programs are really run 
well and that we are really looking at the whole issue of 
fraud.
    I would also say that on the H-1B visas that you mentioned 
earlier, it is very interesting that the actual number of 
applications is down substantially this year. That in and of 
itself allows us to focus more on making sure that these 
programs are scrupulously run.
    Senator Grassley. OK. I think you just answered the other 
two questions of three, but the extent to which I say there are 
problems, I described the problems. You might disagree with 
whether or not there are L visa problems. But if you would 
agree with me that there are problems, would you consider 
administrative action to fix the program?
    Secretary Napolitano. Yes, and let me, if I might--first of 
all, I was just mentioned, I think the IG report was 2006, and 
we often have this issue where their reports----changes we have 
already made are in advance of when the reports come out. There 
is a disconnect in terms of timing. But let me commit that we 
will look at that and get back to you as soon as possible.
    Senator Grassley. OK. I have got several questions on E-
verify. Let me pick out one here because my time is pretty much 
up. I recently sent a letter to the Office of Management and 
Budget about my concern that economic stimulus dollars were 
going to foreign companies or to companies that manufacture 
products abroad. The purpose of the Recovery Act was to 
stimulate the U.S. economy and bolster our employment. So in 
that vein, we should also be making sure that recipients of 
these dollars are hiring workers that are legally authorized to 
work within the United States. The Executive order signed by 
President Obama requires that contractors of the Federal 
Government use E-verify.
    Could you confirm that recipients of stimulus dollars are 
using the E-verify system?
    Secretary Napolitano. Yes, and I can confirm that the 
number of companies using E-verify is growing by great 
multiples every week and that the accuracy of the system, the 
system itself, is much better than when it was originally 
started. So a lot of the reports of error rates and the like 
are, in fact, erroneous.
    Senator Grassley. OK. If you would look into that further, 
I would appreciate it. Then I have another question I will give 
you for answering in writing.
    Secretary Napolitano. OK.
    [The question appears under questions and answers.]
    Senator Grassley. Thank you.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much.
    Secretary Napolitano, it is a pleasure to have you before 
the Committee. Thank you very much for your service on this 
very important area of our homeland security.
    I want to go into cybersecurity for a few moments, if I 
might. In November of last year, the Terrorism Subcommittee of 
this Committee, which I chair, had, I think, a very interesting 
hearing in which we heard from Government witnesses as well as 
private sector witnesses as to the vulnerability of America in 
regards to cyber attacks. We all know about the criminal 
elements that are used in cyber attacks to steal money from the 
people of this Nation. There is more money stolen from banks 
today through cyber theft than there was during the bank 
robbery days.
    We also know that there are cyber terrorists out there who 
would like to compromise our country in many different ways. If 
they can disrupt our air traffic for just a short period of 
time--you know what the volcanic ash caused. Bringing our cyber 
down for a few days could run havoc with our National economy, 
or getting into our banking system or getting into our utility 
grid.
    We also know that there are foreign states that are trying 
to attack our country through cyber. So this is of an interest 
not just to the Department of Justice for crime or your 
Department for terrorists but also the Department of Defense on 
national security issues, all of which is involved.
    So our hearing showed that there has been a long-time 
neglect of the coordinated efforts between all the agencies of 
Government and that we are not as safe as we need to be, that 
we do have the best technology in the world against cyber 
attack, but we still are vulnerable. The number used at that 
time is that we are only stopping about 80 percent of the 
attacks on cyber crime or cyber issues in our community.
    My question to you is: With the development of a cyber 
person in the White House, with that appointment, with the 
President moving forward with a cyber command within DOD with 
General Alexander, can you tell us how your role and your 
Department's role will be in the cybersecurity issues? This is 
not just a military issue. This is an issue that affects our 
homeland security. And I am interested as to what type of 
priority this has on your agenda and what you are doing in 
relationship to what the President has announced for a cyber 
head in the White House as well as what is happening in DOD?
    Secretary Napolitano. Yes, Senator. First of all, in our 
Quadrennial Homeland Security Review, which was the first ever 
for DHS, we actually identified protection of cyberspace as one 
of our five major mission areas, in addition to 
counterterrorism, border security, immigration, disaster 
preparation and response. We did so because of the things that 
you laid out.
    Within our Department, it is primarily located in NPPD 
because of the intersection with critical infrastructure and 
with the private sector. We view ourselves and the President's 
review puts us as primarily responsible for the civilian side 
of Government in terms of protection and the intersection with 
the private sector, which is where 85 percent of the critical 
infrastructure of the country is. And so we have lined up 
there.
    The one principal exception to that is that the Secret 
Service has a very effective and longstanding cyber crimes and 
cyber forensic capacity within the Secret Service, so that 
remains there, but virtually everything else is within the 
NPPD.
    Senator Cardin. Well, I just urge you to give this the 
highest priority because I think we have the technology to do a 
lot better than we are doing today. We just need to make sure 
that like all intelligence information is shared, we have a 
common objective on cybersecurity. And you are absolutely 
correct. The private sector vulnerability is clear. The 
Government is in better shape, but we still are vulnerable. And 
we are vulnerable to what happens in the private sector. So 
this is all very much interrelated and comes very much under 
homeland security.
    I want to go back to one of the principal recommendations 
of the 9/11 Commission that has yet to be implemented. The 9/11 
Commission correctly concluded that the choice between security 
and liberty is a false choice, as nothing is more likely to 
endanger America's liberty than the success of a terrorist 
attack at home, which I strongly support. But then it 
recommended that the Privacy and Civil Liberties Oversight 
Board be reconstituted to ensure that liberty concerns are 
appropriately considered in the implementation of laws, 
regulations, and executive branch policies related to efforts 
to protect the Nation against terrorism.
    Now, I have been in the Senate long enough to know that 
when we deal with the tools necessary that agencies need to 
protect us against terrorist attacks, we still have a fight 
going on here, and it has been difficult for us to move 
legislation because of the concern as to whether these tools 
will be used properly and whether civil liberties will be 
protected. It seems to me having this board in place would help 
us in dealing with legitimate concerns raised by the civil 
liberty issues so that we do not have this continuous fight 
every time we try to extend a sunset provision or to deal with 
this issue generally.
    The administration has requested $2 million for salaries 
and expenses. However, we do not have the nominees for the 
board.
    Can you just update us as to the status of the 
reconstitution of this board that was recommended by the 9/11 
Commission?
    Secretary Napolitano. Senator, that is probably a question 
better directed at the White House. All I will say is, A, it is 
a false dichotomy between security and civil liberties, and we 
build privacy and privacy protections into really the outset as 
how we are looking at technologies and different things that we 
are doing.
    Second, we have suggested to the White House some 
appropriate names for possible nominations, but I think the 
actual status of the nominees should be directed at the White 
House.
    Senator Cardin. I understand that the responsibility is 
with the White House to make these appointments, but I know 
that you have the opportunity to weigh in on this. I would just 
urge you that if you want our cooperation on budget support, et 
cetera, it is a lot easier if we have nominees to consider. And 
it may take some time for that process to go forward. I would 
urge you to use your position and voice within the Cabinet to 
get this issue moving forward.
    Secretary Napolitano. Indeed.
    Senator Cardin. Thank you, Madam Secretary.
    Senator Whitehouse. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    Secretary Napolitano. Thank you.
    Senator Graham. You have one of the toughest jobs in 
America. You are dealing with so many issues. And I would argue 
there is no more challenging issue facing America than 
immigration reform. Would you agree with that?
    Secretary Napolitano. I would say it was among the top 
issues, yes, indeed.
    Senator Graham. Having been involved in trying to find a 
solution in the past, I can assure you it is difficult 
politics, but here is where I have come down on this issue. I 
think 70 percent of Americans are in the camp that illegal 
immigrants need to be fairly and firmly dealt with, and fairly 
and firmly does not mean mass arrests. Do you believe we can 
put 12 million people in jail?
    Secretary Napolitano. No.
    Senator Graham. Nor do I. And I believe that is not a 
required solution. Do you believe that we are going to deport 
12 million people?
    Secretary Napolitano. No.
    Senator Graham. I do not believe that is going to happen 
either. And I would say to what Senator Sessions said, all of 
us kind of look the other way as long as the labor needs are 
being met. After 9/11, illegal immigration takes on a different 
flavor. It is not about people helping our economy. It is about 
broken systems that could lead to attacks on the country.
    Isn't it true that all the hijackers, 9/11 hijackers, did 
not come across the southern border, they overstayed their 
visas?
    Secretary Napolitano. I believe that to be true.
    Senator Graham. And isn't it also true that one hijacker 
had, I think, up to 18 or 19 multiple driver's licenses that 
were faked?
    Secretary Napolitano. I would have to double-check.
    Senator Graham. Just say yes because I know I am right on 
this one.
    [Laughter.]
    Secretary Napolitano. It sounds like you are asking me a 
real question.
    Senator Graham. Just go along with me here for a while 
because I can prove what I am saying on this. And the point of 
the matter is that there are two problems in America: an 
unsecured southern border and a visa system that is completely 
broken.
    Do you agree with me that the worst thing we could do is 
bring up immigration reform and it crash and burn politically?
    Secretary Napolitano. You know, Senator, I think that, as 
you and I have discussed and I have discussed with other 
members of the Committee, the administration looks forward to 
taking up immigration comprehensively and dealing with the visa 
issues, the enforcement issues, workers----
    Senator Graham. And so do I. I look forward to it. Do we 
have 60 votes to bring up comprehensive immigration reform 
between now and November? Are there 60 United States Senators 
ready to deal with this issue between now and November?
    Secretary Napolitano. Senator, I am not going to presume to 
put myself in the place of counting votes of----
    Senator Graham. Well, the only reason I would suggest that 
we need to know is because it is important. Somebody needs to 
talk to Senator--Republicans--but Nelson, Lincoln, Webb, 
Baucus, Byrd, McCaskill, Tester, Dorgan, Conrad, Pryor, and 
Bingaman. Some of these people voted no in 2007. And I am not 
saying they were wrong to vote no. I am saying that the 2007 
bill would not pass. Do you agree with that?
    Secretary Napolitano. As you state the question, I would 
give you a tentative yes.
    Senator Graham. I would bet everything I own that the 
answer is this 2007 bill will not pass. And you agree with that 
or not?
    Secretary Napolitano. I will bet you everything I own that 
the Congress needs to take up immigration reform because it is 
not going to go away.
    Senator Graham. Yes, ma'am. It will not go away. But I bet 
you everything I own, if you bring it up in this environment, 
not having done anything that is going to reassure the American 
public that we will not have 20 million more, that you are 
going to crash and burn, and that immigration comes up this 
year is absolutely devastating to the future of this issue, and 
the southern border is not only not secure, there is a war in 
Mexico that is bleeding over to America. The mayor of Juarez 
has moved out of his city, and he is living in the United 
States. And I think most Americans think we will have lost our 
mind if we move forward without securing the border, because 
the biggest change between 2007 and now is that there is a war 
in Mexico threatening the Mexican Government that also 
threatens people who live along the border. And your State of 
Arizona is made up of a lot of good people. You would agree 
with that?
    Secretary Napolitano. Absolutely.
    Senator Graham. Well, look what good people will do when 
they are under siege. What happened in Arizona is that good 
people are so afraid of an out-of-control border that they had 
to resort to a law that I think is unconstitutional and does 
not represent the best way forward. And it is impossible for me 
and any other serious Democrat to get this body to move forward 
until we prove to the American people we can secure our 
borders. And, quite frankly, Madam Secretary, we have got a 
long way to go. But once we get there, comprehensive reform 
should come up, will come up, and I believe we can do it by 
2012 if we are smart and we address the big elephant in the 
room, and that is that our borders are broken and there is a 
war going on that is going to affect the future of this issue 
until we get that solved.
    Secretary Napolitano. Senator, may I respond to that?
    Senator Graham. Please.
    Secretary Napolitano. And I say this, again, as someone who 
has--I have walked that border. I have ridden that border. I 
have flown it. I have driven it. I know that border I think as 
well as anyone----
    Senator Graham. Do you think it is secure?
    Secretary Napolitano.--And I will tell you, it is as secure 
now as it has ever been----
    Senator Graham. My question----
    Secretary Napolitano. Senator, please, let me----
    Senator Graham. Yes, please.
    Secretary Napolitano. Let me answer the question. Every 
marker, every milepost that has been laid down by the Congress 
in terms of number of agents, deployment of technology, 
construction of fencing and the like has already either been 
completed or is within a hair's breadth of being completed. And 
one of the questions I think we need to talk about is whether 
securing the border is ever going to be reached before the 
Congress, in the sense of the Congress, or whether that 
goalpost is just going to keep moving. And I also believe that 
we need to communicate better with the American people.
    Senator Graham. Yes.
    Secretary Napolitano. All that the Congress has already 
done along that border----
    Senator Graham. I totally agree with that.
    Secretary Napolitano. It is a very different border now.
    Senator Graham. I totally agree with that.
    Secretary Napolitano. You know, 6, 7 years ago, the number 
of illegal apprehensions in the Tucson sector of the border was 
over 600,000. Now it is 200,000--too many, I agree. But the 
securing the border aspect has moved forward, and the issue 
then is will CIR move forward, too?
    Senator Graham. Under the law that we tried to pass in 
2007, it required border State Governors to say that the border 
was secure along their border, their State border. Knowing what 
you know about Arizona--and, Mr. Chairman, if you would indulge 
me a little bit, I would appreciate a little more time--would 
you say, would you certify that the Arizona border is secure?
    Secretary Napolitano. If I were asked that question now in 
this position--first of all, it is an unfair question, and that 
is why the border Governors----
    Senator Graham. If that is an unfair question, then it 
would be news to the----
    Secretary Napolitano. Well, let me finish my answer.
    Senator Graham.--people of the United States and Arizona. 
If it is unfair to ask a simple question, is the border secure, 
then we are never going to have the confidence to get it 
secure, because it is a fair question, and I will give you my 
answer. I do not think it is. I think since the last effort to 
solve immigration, the border security has deteriorated. Along 
with your best efforts, there is more to be done, and there is 
a war going on. You cannot ignore the fact that the border is 
more dangerous because of the war in Mexico, which requires 
more action not less. So I--I am sorry. Go ahead.
    Secretary Napolitano. Senator Graham, let me, if I might.
    Senator Graham. Please.
    Secretary Napolitano. Let me respond the way I heard the 
question. Maybe you were answering a different question.
    Senator Graham. OK.
    Secretary Napolitano. What I would say is that we need to 
continue with all of our efforts to secure the border, and the 
numbers are better than they have ever been. But that does not 
mean we stop and that there is not more progress to be done. 
But I would also suggest, sir, I would also say that the 
passage of laws like that at the State level illustrate the 
need for Congress to move ahead on CIR.
    Senator Graham. Yes, and I agree with you, and I will end 
this. The Chairman is right. Here is my view. I think the 
border is less secure because the circumstances of Mexico make 
it less secure. You have done some good things. A lot more 
needs to be done. For anybody who is watching this issue who 
wants relief in the Hispanic community, you deserve it. But the 
last thing that can ever happen, in my view, to get that relief 
is to bring up a bill where there is no hope of it passing. In 
this environment, there is no hope of it passing. Let us get 
this environment corrected on border security, move forward in 
a comprehensive fashion, secure the border, protect America, 
and be fair to the 12 million people, but also be firm that we 
are never going to have 20 million more in the future. That is 
the winning combination.
    Senator Whitehouse. I thank my colleagues for allowing 
Senator Graham the extra time. Given the remarkable extent of 
his involvement in this issue, I think he was entitled to it, 
and I hope my colleagues understand.
    It has now come to me, Secretary, and I wanted to talk with 
you about two things: FEMA and cyber. I want to first thank you 
for your visit to Rhode Island after our flooding. I do not 
remember whether I called you on a Tuesday or a Wednesday, but 
I think you were there by Friday. It was a very, very quick 
response. You came up in person. It was important for Rhode 
Island to see that kind of attention. This was a very 
significant flood for us. There were places where the flooding 
exceeded the Army Corps of Engineers 500-year flood lines. So 
your presence was very important, and I want to commend the 
effort of FEMA in deploying rapidly, in deploying widely, in 
deploying effectively. The presence has been first-rate, and 
the people who have come in from all across the country to help 
have been very good to work with.
    There is inevitable disappointment about the fact that the 
program that FEMA can deliver has statutory and regulatory 
restrictions. You get what you get, and not more. But the speed 
and the effectiveness with which you came in to deliver what 
FEMA can deliver was very commendable, and I wanted to say 
that.
    There are two areas where we are still having some problems 
that I wanted to focus on, and if you could pass on to one of 
your staff people to follow up and try to help us work through 
it, I would appreciate that. One is that some of our disaster 
victims--we have 2,000 Rhode Islanders still not back in their 
homes. It has been quite a while now. This is a long time to 
still be out. Some of them are having problems finding 
temporary housing and have reported being moved from hotel to 
hotel and having difficulty funding monthly rentals, 
particularly monthly furnished rentals since all their 
furniture is under water. So anything that can be done to help 
us work through that problem I think would be helpful.
    The other problem that has emerged is some cases in which 
FEMA inspectors have disagreed with the local determination by 
municipal building officials whether a building is inhabitable 
or not. It puts the occupant of the building in an impossible 
position to be told different things by FEMA inspectors and 
local inspectors. And so a resolution of that quickly between 
those two, some mechanism for resolving it I think is very 
important. Otherwise, I mean, these people are pretty 
frustrated to begin with to be flooded out of their homes from 
flooding that they had never foreseen, never experienced in 
their lives, and then all the inconvenience and delay, and now, 
``It isn't inhabitable. It isn't inhabitable. Your benefits are 
going because we say you can move in, but the building 
inspector says you cannot.'' So if you could help us work 
through that, I would appreciate that.
    Secretary Napolitano. We will, and we will get in touch 
with FEMA after this hearing to see what can be done.
    Senator Whitehouse. Great. I appreciate that.
    On cyber, I guess I would like to ask two questions. One 
is, you know, we have got maybe three dozen cyber pieces of 
legislation pending in Congress right now. In the professional 
community that looks at cyber as a national security issue, 
there is intense interest and activity. It is an area in which 
I think you and I both believe an enormous amount needs to be 
done in order to prepare America better. But partly because 
what we do to protect .gov and .mil is classified and what the 
private sector experiences in .com and .org is not something 
they want to talk about because it reveals vulnerabilities that 
competitors can take competitive advantage of and so forth, my 
contention is that the American people are way behind this 
discussion.
    My first question is how you think--should we try to 
formalize some way for getting the American people more 
involved in this discussion? There are very significant 
questions we are going to have to answer about the use of the 
Internet, about protecting our companies, about what their 
rights are to defend themselves, about protecting our own 
Government, acts about the extent of the cyber piracy that we 
are being engaged in. I contend that cyber piracy is the 
biggest transfer, the biggest theft of value in the history of 
humankind, and we are on the losing end of it. So I think a lot 
needs to be done. How do we get the American people more 
engaged?
    Secretary Napolitano. Well, I think your question actually 
lays out some of the--that the private sector needs to be more 
engaged, that we need greater connectivity on the civilian 
side. And one of the things, Senator, that we have been looking 
at is just plain old, good cyber hygiene by any individual who 
is getting on the Net. We actually have a competition under way 
right now--I think it closes next week--for some simple 
sloganing, some simple messaging that can be used to engage 
anyone who is on the Net, because now they are part of the 
system. Once you are on the system, you get the advantage of 
the system, but you also get the disadvantages. So it is, as 
you say, something that much work needs to be done.
    Senator Whitehouse. I look forward to working with you on 
it, and the statistic that I have heard is that 80 percent of 
the cyber attacks that America sustains that succeed could be 
blocked if people simply took very basic, very common, standard 
preventive measures and that, in effect, we are not applying to 
our computers and laptops anywhere near the same degree of duty 
of care that we require Americans to do when they get out on 
the regular highway with their vehicles. And we need to find a 
way to bridge that gap.
    The second question has to do with emergency response in 
the event of a very significant cyber attack. If a bank, for 
instance, crashes because of solvency concerns, the FDIC can 
come in on a Friday; by Saturday it is opened under new 
management. Everybody feels comfortable. The institution 
continues. It goes right back into the private sector. But it 
is saved because there was a brief and effective Government 
intervention that carried it from one private owner to another.
    If that same bank is hit by a cyber attack that renders 
confidence in it suspect and it faces the same run on the bank, 
or if an electric utility is hit in a way that compromises its 
ability to continue to deliver services and its own information 
systems cannot withstand the attack, how ready are we as a 
Nation to step in behind that bank or that utility and sustain 
them through the sustained cyber attack, help them defend their 
network, help them make sure that their billing and electron 
flow and deposit records and all those things are maintained, 
and then when the situation is back under control, step back 
out again so that it remains in private hands?
    Secretary Napolitano. I think, you know, we have the CERT 
teams, we have other mechanisms there, but they are not set up 
in the same way, in the same kind of a takeover type of 
facility or capability as you would in a bank receivership, for 
example.
    You know, I think these are all ideas that now need to be 
discussed within the Congress and that we need to move--really 
need to be exploring a lot of these different ideas that are--
some of them are expressed in the multiple pieces of 
legislation that are being proposed, but I think you are right 
to say that, look, this needs to be a very high priority of us 
both at the individual level but also at the private and 
institutional level as well.
    Senator Whitehouse. Well, I look forward to working with 
you on it, and I very much appreciate and salute your 
leadership of the Department of Homeland Security.
    I believe Senator Cornyn is next, followed by Senator 
Klobuchar, and Senator Specter will take the gavel.
    Senator Cornyn. Madam Secretary, I know you share my 
concern with the escalating drug violence in Mexico, and, by 
the way, I appreciate your reaching out and calling me and 
giving me some insight into your meetings recently--you and 
Secretary Gates, the DNI, the Secretary of State and others. I 
was very impressed by the high-level nature of that delegation, 
which I think speaks to the seriousness of the challenges the 
Mexican Government is having with the cartels--a challenge that 
threatens not only their safety and security but ours as well.
    I think most Americans would be shocked to learn that there 
have been about 23,000 people killed in Mexico since 2006. 
There is a war going on, as you know, and I worry that the 
Mexican Government may not be poised to win that war.
    I support the Merida Initiative, which I know you support 
and are responsible for implementing in large part. But I worry 
that what we are doing is not turning the direction of the 
escalating violence around, and there is more that we need to 
do.
    I went to El Paso on Friday and had a good briefing from 
all the Federal authorities there, which was very informative. 
But one of the things that I learned there is that there are 
substantial spillover effects into the United States, and 
particularly into El Paso. For example, Silvestre Reyes, the 
Congressman who represents that district, has written to the 
President citing 150 victims of violence in Ciudad Juarez who 
have been paroled into the United States and hospitalized at 
the University Hospital at a cost of about $3 million. He also 
notes that 32 percent of the associated physicians' fees--only 
32 percent have been paid and that many of the hospital 
employees worry, with some justification, that the cartels if 
they have not finished the job in Juarez will come over to the 
United States and complete it.
    So it is with an eye to all of this that I want to ask you 
specifically about Predators, unmanned aerial vehicles, and 
other assets which we can deploy to help provide intelligence 
and other assets that could be used not only by the United 
States to secure our border, but also by the Mexican Government 
to defeat the cartels.
    My understanding is that U.S. Customs and Border Protection 
has five unmanned vehicles currently in operation--three 
Predators on the southern border and two on the northern 
border. I will tell you that I am upset that there are none in 
Texas. We have a 1,200-mile border with Mexico, and as I 
understand, none of those Predators are available or are being 
used by the Border Patrol or Customs and Border Protection in 
Texas.
    Specifically what I was told is that the Federal Aviation 
Administration has failed to issue a certificate of 
authorization for the flight of these unmanned aerial vehicles 
in commercial airspace, and I wonder if you could tell us what 
the hold-up is and what the plan is to fix that, because it 
seems to me that getting those Predators, those drones 
available to fly and provide intelligence, is very important 
and the FAA appears to be blocking it at this point.
    Secretary Napolitano. Senator, this is an issue pending in 
the FAA. The plain fact of the matter is that the Texas 
airspace is more crowded than the other airspace that needs to 
be protected along the border and had more predetermined 
certifications already in place. And so the FAA now has to go 
in and carve out, as I understand it, space for the Predator. 
But that is under way, and we have urged them and said that we 
would very much like to be able to deploy the Predator there.
    Senator Cornyn. Well, I know we have been talking about 
this--not you and me, but all of us here--for some time, and it 
seems like the delay just keeps extending on and on and on. And 
I would ask for your help to try to expedite approval. I intend 
to ask the FAA to come to my office and explain to me what 
their posture is and what the delay--why the delay, because I 
am very concerned that some of the assets that could be 
deployed not only to help quell the violence in Mexico, but 
also keep our borders secure, are not being deployed because of 
unnecessary foot dragging.
    I mentioned some of the spillover effect of the violence in 
Mexico. I also was advised in some of my meetings in El Paso 
that there are as many as 20,000, perhaps more, displaced 
Mexican citizens that are living with relatives and others in 
El Paso on the U.S. side. Senator Graham mentioned the fact 
that the mayor of Juarez--a city where 700 people have been 
killed so far this year, and which is right across the river 
from El Paso, that mayor lives in El Paso. He lives in the 
United States because he fears for his own safety and security 
in Mexico.
    And I mentioned the spillover effect on hospitals, but it 
also is having an affect throughout Texas. It's obvious in 
schools where children are being registered for public school 
in the United States in El Paso, and in people moving into U.S. 
homes and rental property in order to protect themselves. This 
is a very, very serious problem, as I know you recognize, and 
we have got to find a way to do more to help Mexico, and to 
help ourselves.
    One last thing. What kind of cooperation does your 
Department get from the Department of Defense? I am thinking 
not just about troops. I am talking about assets, niche assets. 
I mentioned unmanned aerial vehicles, other radar assets that 
the United States military has developed in the course of our 
conflicts in Afghanistan and Iraq, which could be state-of-the-
art technology that could be a big help. Could you explain to 
me what the conversation has been, what kind of cooperation? Or 
is there no coordination or collaboration or cooperation 
between DHS and the Department of Defense?
    Secretary Napolitano. Two points, Senator. One is I think 
your observation bears repeating, and that is, by helping 
Mexico we help ourselves, and that particularly our assistance 
through Merida and other means in this issue on the cartels 
helps us. These cartels impact us, and that is why we view them 
as a homeland security issue.
    Second, we have good cooperation with DOD. As you noted, 
Secretary Gates was with us when we had the high-level contact 
group meeting in Mexico City. There are ongoing operational 
things that are being done and exchanges of things like 
technology. So we have very good cooperation there.
    Senator Cornyn. Well, I again commend you and the 
Administration for treating this problem so seriously. I would 
just like to respectfully suggest to our Chairman and our 
current Chair that it might be good to have all Members of the 
Senate, on a bipartisan basis, briefed in a classified setting 
on what is going on in Mexico, what the United States 
involvement is, because, frankly, I think this represents a 
huge threat not only to Mexico but also to American citizens, 
and not just along the border.
    Finally, let me just say that I note that in fiscal year 
2009 there were 556,000 apprehensions of people coming across 
the southern border--I believe my number is correct--which is 
down considerably from its height. But I do not think it is 
anywhere near the point where we can say that our border is 
secure. Would you agree with that? And if you do, what 
additional resources do you need in order to secure our border?
    Secretary Napolitano. Well, I think we always are working 
to make the actual physical security of the border more 
complete, but I would say that not only has significant 
progress been made, but in all of the sectors of the border you 
can show that it is better now than it was 2 years ago, 3 years 
ago, 5 years ago, and the like.
    I think we need to continue to make sure that we sustain 
the Border Patrol presence, that we continue to look at the 
technology dollars you have appropriated and make sure they are 
being deployed in the right way with the most effective kinds 
of technologies and that there will be different technologies 
in different areas of the border because of the different 
terrain involved, among other things, and that we look at 
infrastructure in the right way to deploy infrastructure. And 
interior enforcement is an important part of the puzzle as 
well. So it is what we do at the border, it is interior 
enforcement and how that is done, and that is the package that 
we are implementing.
    Senator Cornyn. Well, I look forward to working with you to 
make sure you get the resources you need in order to get the 
job done, and I appreciate your commitment to that objective.
    Mr. Chairman, I would like to ask unanimous consent that 
three letters be made part of the record. One is from Hon. 
Silvestre Reyes to the President of the United States, dated 
March 28th, and then two other letters from the University 
Medical Center of El Paso, dated March 16th and April 16th that 
all pertain to the spillover effects of the ongoing cartel-
related violence in Juarez into El Paso.
    Senator Specter [presiding.] Without objection, they will 
be made a part of the record.
    [The letters appears as a submission for the record.]
    Senator Specter. Thank you, Senator Cornyn.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Specter. 
Hello, Madam Secretary. Thank you so much for being here.
    Secretary Napolitano. Senator.
    Senator Klobuchar. I was thinking, as I know there has been 
a lot of focus on the southwest border, I think I will ask one 
question about that. I have to tell you I came in from a 
hearing on national tourism with Ken Burns to Senator Graham's 
questioning of you, and it was quite an alarming change of 
pace. And my first question actually is about--and first is a 
thank you for the work that you did with the orphans in Haiti 
and the adoptions and granting humanitarian parole and working 
with us. There are many very happy kids and happy Minnesota 
families that had pending adoptions that were nearly complete 
when the tragedy happened there, and if it was not for your 
good work and Secretary Clinton's, I do not think that those 
kids would be there with those families. And I know you will 
probably never meet those kids or their families, but you 
changed their lives forever, so thank you for that.
    I wanted to specifically ask about the follow-up on some of 
the Christmas Day bombing work. I know that we talked about 
that the last time you were here. We talked about the 
disclosure of the airport screening procedures and things like 
that. I wondered what is the update on the security lapse with 
that document being shown. This would be the disclosure of the 
TSA airport screening procedures when the confidential document 
was placed online. And I think there is going to be some 
looking at that, and so that would not happen again, and then 
also what is happening with the airport screening and the 
installation of some of the new screening.
    Secretary Napolitano. Let me get back to you on the TSA 
issue because I think there has been action taken, but I do not 
have it at my fingertips.
    With respect to airport screening, quite a bit has been 
done. As you know, we have accelerated the deployment of the 
AIT machines. We have also increased explosive trace detection 
machinery, K-9 teams, behavior detection officers in our 
domestic airports. We have also embarked on a very ambitious 
global initiative in terms of raising world aviation security 
standards because what was clear on Christmas or became clear 
on Christmas is that once you get into an airplane in any 
airport in the world, you potentially have access to the entire 
system. And so working with ICAO, which is the UN's aviation 
branch, we have had meetings with the EU countries in Spain, 
with the Western Hemisphere countries in Mexico City, Asian 
countries in Tokyo. We just had a meeting with the African 
nations in Nigeria. We will have a meeting in the Mideast in 
the next coming weeks--all geared toward an international, 
global consensus on what everybody needs to do to increase 
aviation security.
    Senator Klobuchar. Very good. I wanted to, like Senator 
Whitehouse, thank you for the work of FEMA. As you know the Red 
River flooding and the near miss last time and this time, I 
think the planning and all the work that we had done with FEMA 
and some of the work that was done in the interim, smaller 
things, helped out. Obviously, we have a bigger issue with 
flood diversion that we need for the long term. But I wanted to 
ask you about the levee certifications.
    As you know, FEMA is working with communities across 
Minnesota to recertify their flood protection levees. One 
example, Oslo, Minnesota, literally for months they have had--
they get into their community by boat because they are 
surrounded by a ring dike. And Oslo was given 2 years to 
complete the certification process, until April 30th, in order 
to be in compliance with FEMA requirements. Although Oslo fully 
intends to comply, there have been some issues with finding the 
funds necessary to pay for the expensive technical advisers and 
engineers necessary to complete the certification, not just in 
Oslo, some other towns.
    In addition, in most instances the Army Corps of Engineers 
constructed these levees, but does not have the resources or 
capability to complete the work necessary for FEMA 
certification.
    So I know this is not unique. Do you know how the 
Department has been handling these situations? My fear is while 
they are doing their best to comply, we do not want them to be 
unnecessarily punished as they are surrounded by water?
    Secretary Napolitano. Well, my understanding is that there 
are several pieces of legislation moving through looking at the 
National Flood Insurance Program overall, which is really the 
connect with the whole levee issue and levee certification. As 
you suggest, Senator, this is enormously complicated, it is 
enormously expensive, and it is enormously important. And there 
are lots of issues that we are going to need to work through 
with the Congress and with people like you to get this right, 
because there are many, many communities across the country 
that are now looking at that April 30 deadline and going, 
``What do we do next? ''
    So, again, I know there is some legislation moving through. 
We are providing assistance with that legislation.
    Senator Klobuchar. OK. Back to travel. As you know, we 
finally passed the Travel Promotion Act. You and I have talked 
about this, and I am not certain if I got you that movie I 
wanted you to see, but if I did not, we will get it there 
tomorrow. But it is a movie for greetings, just a continual 
feed with no voice to be potentially used in the airports where 
international visitors come. It is a beautiful film. We showed 
it a year or so ago, just wonders of our country. That plus 
trying to process these foreign visas quicker with hopefully 
some resources we will have now from that $10 fee on foreign 
visitors. I just wanted to encourage you to work with us on 
that. I know given all the questions of my colleagues it is not 
the No. 1 thing on everyone's mind, but I remind them that 
every 1 percent we lost in international tourism since 9/11, we 
have lost 20 percent of the market, is 170,000 jobs in this 
country, every 1 percent.
    So as we are looking at ways to further this economy, we 
are really excited about the Travel Promotion Act and look 
forward to working with you.
    Secretary Napolitano. Indeed, and as the former Governor of 
a State that relies heavily or relied heavily on tourism 
dollars, I really appreciate the importance of that.
    Senator Klobuchar. Very good. The last thing is just to 
follow up, listening to Senator Graham's questions, and a 
little of Senator Cornyn's. It is just my impression, having 
only been here for 4 years, that since you have come in, you 
have worked very hard on these border issues, specifically some 
of the drug enforcement issues, and really have had a laser 
focus on that that we had not seen before. And I just wanted to 
give you an opportunity to talk about the difference between 
what was going on under some of your predecessors with the 
border and with some of the law enforcement issues with Mexico 
and what you have been doing now.
    Secretary Napolitano. Well, thank you, and let me just say 
that one of the key things that is going on now is the 
cooperation with Mexico, and one of the things that does not 
get counted is the amount of law enforcement resources Mexico 
itself is deploying to the border. Just on our southern side, 
for example, we are about to begin helping them train their 
first ever Border Patrol. So it is not just going to be our 
Border Patrol on this side. They will have Border Patrol on 
their side. It is those kinds of things that give us--what we 
want to have is a 21st century, really a border zone, protected 
south and north, but it needs to marry up with an immigration 
system that works. And as we know, that immigration system 
itself needs to be reformed by the Congress.
    Senator Klobuchar. Thank you very much.
    Secretary Napolitano. Thank you.
    Senator Specter. Thank you, Senator Klobuchar.
    Madam Secretary, thank you again for your service. I note 
in your resume that you lived for a while in Pennsylvania, born 
in New York, and lived in New Mexico. How much credit can 
Pennsylvania take for you?
    Secretary Napolitano. Well, probably some Pennsylvanians 
want to take a lot and probably some would rather not. But I 
learned how to read in Pennsylvania. I lived there for several 
years, nursery school, kindergarten, and first grade.
    Senator Specter. Well, we are proud of you.
    Secretary Napolitano. Thank you very much.
    Senator Specter. The issue as to what has happened in 
Arizona has caused a great deal of concern in many quarters, 
and I know that President Obama has been anxious to move ahead 
on immigration reform. We came very close in 2006 when both 
Houses passed bills. The Senate passed a comprehensive bill. 
The House bill focused only on border protection. And we could 
not get a conference convened, and nothing happened. And now 
Arizona has legislated in a way which has drawn a lot of 
questions, a lot of criticism.
    The impact of what the law contains could be very, very 
serious in terms of what happens with the relations between the 
Latino community and the people who are so heavily pressing on 
enforcement measures which may be unconstitutional. On their 
face, they appear to have that significant risk of racial 
profiling.
    You, of course, have intimate knowledge there, having been 
Governor two terms. How serious is it, as a matter of race 
relations in Arizona and the temper of the community, that the 
Federal Government move ahead to legislate to impose 
appropriate standards contrasted with what the Arizona law has?
    Secretary Napolitano. Senator, in my view, one of the 
motivations behind the Arizona law was frustration with the 
perception that Congress was not moving on this issue at all, 
and that the State would have to move in the absence of 
Congressional movement. I know the President is very interested 
in reaching out for a bipartisan consensus to see if we can 
move an immigration bill through. Senator Graham expressed some 
doubts as to whether there were 60 votes in the Senate for 
that. But I think the message sent from Arizona was that 
movement needs to occur that this issue should not be allowed 
to languish.
    Senator Specter. Madam Secretary, to what extent is there a 
concern about civil unrest with what may occur with the 
enforcement of this law?
    Secretary Napolitano. I think there are a lot of issues. If 
this law goes into effect--and, again, the effective date is 
not until 90 days after the session ends. But if it goes into 
effect, I think there are a lot of questions about what the 
real impacts on the street will be, and they are unanswerable 
right now.
    Senator Specter. My State has a considerable Latino 
population, and I hear a lot of concern and a lot of anger. And 
when you start getting really tough with the high-handed 
tactics which are authorized by this law and the racial 
profiling, it puts added stress on Congress. We have been 
derelict, flatly derelict, in not acting up until now. And 
those who search for 60 votes might find it easier to locate 
them in the face of that kind of a problem. So I am interested 
in what you think about it because you know the temper down 
there a lot better than those of us who have only been inside 
the Beltway.
    Secretary Napolitano. Well, Senator, I really appreciate 
it. I think there is a lot of cause for concern in a lot of 
ways on this bill and what its impacts would be if it is to 
actually go into effect. And I think it signals once again a 
frustration with the failure of the Congress to move.
    I will work with any Member of the Congress and have been 
working with several Members of the Congress on actual language 
about what a bipartisan bill could and should contain.
    Senator Specter. What can the Federal Government do, Madam 
Secretary, to deal with the potential for racial profiling and 
other unconstitutional aspects of the Arizona law short of 
superseding it?
    Secretary Napolitano. Well, I think the Department of 
Justice, Senator, is actually looking at the law as to whether 
it is susceptible to challenge, either facially or later on as 
applied, under several different legal theories. And I, quite 
frankly, do not know what the status of their thinking is right 
now.
    Senator Specter. Shifting to the issue of our overall 
relations with Mexico, we passed NAFTA over a lot of concerns 
and over a lot of objections. And the thought was expressed at 
the time that to stimulate economic development and prosperity 
and the raising of the standard of living in Mexico would be 
very beneficial to the United States, would limit immigration, 
limit illegal immigration, could have an impact on the drug 
wars, which are ferocious.
    How helpful has NAFTA been, Madam Secretary? You have been 
very close to it. Aside from being better than it might have 
been, has it had any real significant effect on improving the 
situation in Mexico so that we were looking for that collateral 
benefit in the United States?
    Secretary Napolitano. Senator, I believe that NAFTA has had 
some beneficial impacts. But I also believe that the Mexican 
economy still has not created the number of jobs that it needs 
to create overall so that we still must be aware not just of 
illegal immigration but jobs that are created by the drug 
cartels themselves, including the production of drugs, not just 
the trafficking in drugs.
    So, again, it is very important for us, I believe, to work 
closely with Mexico. They are the No. 1 or two trading partner 
of 22 States of the United States, and so to the extent that 
their economy and our economies have trade and other 
relationships ongoing, that needs to be an important part of 
our dialogue.
    Senator Specter. There is no doubt that NAFTA has benefited 
Mexico. Has NAFTA benefited the United States?
    Secretary Napolitano. Senator, I believe it has in the 
sense that it has added to the trade and commerce in Mexico, 
and that relates to jobs within the United States itself.
    Senator Specter. Do you think economically it is a net plus 
for the United States?
    Secretary Napolitano. I would say, Senator, that I check 
numbers--in part, because it is hard to say how the recession 
and the global recession has affected everything, but I can say 
that it would be a lot worse without NAFTA.
    Senator Specter. Well, no doubt it would be a lot worse 
without it. But the question looms, and there is still a lot of 
undercurrent of dissatisfaction with NAFTA from the start. And 
then the question arises as to what extent has it benefited the 
United States economically, and then the collateral question, 
has it really helped Mexico on the other items which we had 
hoped for, the drug war, the border migration, et cetera?
    Secretary Napolitano. Senator, some of these questions 
might better be addressed to some of my colleagues on the 
economics side, but let me tell you on the security side and on 
the cooperation and the need to be able to work closely with 
Mexican Federal law enforcement, that relationship right now is 
as strong as I have ever seen it.
    Senator Specter. Thank you very much, Madam Secretary. We 
appreciate your being here and staying so long and seeing so 
many Senators come and go. Thank you.
    Secretary Napolitano. Thank you.
    Senator Specter. That concludes the hearing.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 

[GRAPHIC] [TIFF OMITTED] T3274.001

[GRAPHIC] [TIFF OMITTED] T3274.002

[GRAPHIC] [TIFF OMITTED] T3274.003

[GRAPHIC] [TIFF OMITTED] T3274.004

[GRAPHIC] [TIFF OMITTED] T3274.005

[GRAPHIC] [TIFF OMITTED] T3274.006

[GRAPHIC] [TIFF OMITTED] T3274.007

[GRAPHIC] [TIFF OMITTED] T3274.008

[GRAPHIC] [TIFF OMITTED] T3274.009

[GRAPHIC] [TIFF OMITTED] T3274.010

[GRAPHIC] [TIFF OMITTED] T3274.011

[GRAPHIC] [TIFF OMITTED] T3274.012

[GRAPHIC] [TIFF OMITTED] T3274.013

[GRAPHIC] [TIFF OMITTED] T3274.014

[GRAPHIC] [TIFF OMITTED] T3274.015

[GRAPHIC] [TIFF OMITTED] T3274.016

[GRAPHIC] [TIFF OMITTED] T3274.017

[GRAPHIC] [TIFF OMITTED] T3274.018

[GRAPHIC] [TIFF OMITTED] T3274.019

[GRAPHIC] [TIFF OMITTED] T3274.020

[GRAPHIC] [TIFF OMITTED] T3274.021

[GRAPHIC] [TIFF OMITTED] T3274.022

[GRAPHIC] [TIFF OMITTED] T3274.023

[GRAPHIC] [TIFF OMITTED] T3274.024

[GRAPHIC] [TIFF OMITTED] T3274.025

[GRAPHIC] [TIFF OMITTED] T3274.026

[GRAPHIC] [TIFF OMITTED] T3274.027

[GRAPHIC] [TIFF OMITTED] T3274.028

[GRAPHIC] [TIFF OMITTED] T3274.029

[GRAPHIC] [TIFF OMITTED] T3274.030

[GRAPHIC] [TIFF OMITTED] T3274.031

[GRAPHIC] [TIFF OMITTED] T3274.032

[GRAPHIC] [TIFF OMITTED] T3274.033

[GRAPHIC] [TIFF OMITTED] T3274.034

[GRAPHIC] [TIFF OMITTED] T3274.035

[GRAPHIC] [TIFF OMITTED] T3274.036

[GRAPHIC] [TIFF OMITTED] T3274.037

[GRAPHIC] [TIFF OMITTED] T3274.038

[GRAPHIC] [TIFF OMITTED] T3274.039

[GRAPHIC] [TIFF OMITTED] T3274.040

[GRAPHIC] [TIFF OMITTED] T3274.041

[GRAPHIC] [TIFF OMITTED] T3274.042

[GRAPHIC] [TIFF OMITTED] T3274.043

[GRAPHIC] [TIFF OMITTED] T3274.044

[GRAPHIC] [TIFF OMITTED] T3274.045

[GRAPHIC] [TIFF OMITTED] T3274.046

[GRAPHIC] [TIFF OMITTED] T3274.047

[GRAPHIC] [TIFF OMITTED] T3274.048

[GRAPHIC] [TIFF OMITTED] T3274.049

[GRAPHIC] [TIFF OMITTED] T3274.050

[GRAPHIC] [TIFF OMITTED] T3274.051

[GRAPHIC] [TIFF OMITTED] T3274.052

[GRAPHIC] [TIFF OMITTED] T3274.053

[GRAPHIC] [TIFF OMITTED] T3274.054

[GRAPHIC] [TIFF OMITTED] T3274.055

[GRAPHIC] [TIFF OMITTED] T3274.056

[GRAPHIC] [TIFF OMITTED] T3274.057

[GRAPHIC] [TIFF OMITTED] T3274.058

[GRAPHIC] [TIFF OMITTED] T3274.059

[GRAPHIC] [TIFF OMITTED] T3274.060

[GRAPHIC] [TIFF OMITTED] T3274.061

[GRAPHIC] [TIFF OMITTED] T3274.062

[GRAPHIC] [TIFF OMITTED] T3274.063

[GRAPHIC] [TIFF OMITTED] T3274.064

[GRAPHIC] [TIFF OMITTED] T3274.065

[GRAPHIC] [TIFF OMITTED] T3274.066

[GRAPHIC] [TIFF OMITTED] T3274.067

[GRAPHIC] [TIFF OMITTED] T3274.068

[GRAPHIC] [TIFF OMITTED] T3274.069

[GRAPHIC] [TIFF OMITTED] T3274.070

[GRAPHIC] [TIFF OMITTED] T3274.071

[GRAPHIC] [TIFF OMITTED] T3274.072

[GRAPHIC] [TIFF OMITTED] T3274.073

[GRAPHIC] [TIFF OMITTED] T3274.074

[GRAPHIC] [TIFF OMITTED] T3274.075

[GRAPHIC] [TIFF OMITTED] T3274.076

[GRAPHIC] [TIFF OMITTED] T3274.077

[GRAPHIC] [TIFF OMITTED] T3274.078

[GRAPHIC] [TIFF OMITTED] T3274.079

[GRAPHIC] [TIFF OMITTED] T3274.080

[GRAPHIC] [TIFF OMITTED] T3274.081

[GRAPHIC] [TIFF OMITTED] T3274.082

[GRAPHIC] [TIFF OMITTED] T3274.083

[GRAPHIC] [TIFF OMITTED] T3274.084

[GRAPHIC] [TIFF OMITTED] T3274.085

[GRAPHIC] [TIFF OMITTED] T3274.086

[GRAPHIC] [TIFF OMITTED] T3274.087

[GRAPHIC] [TIFF OMITTED] T3274.088

[GRAPHIC] [TIFF OMITTED] T3274.089

[GRAPHIC] [TIFF OMITTED] T3274.090

[GRAPHIC] [TIFF OMITTED] T3274.091

[GRAPHIC] [TIFF OMITTED] T3274.092

[GRAPHIC] [TIFF OMITTED] T3274.093

[GRAPHIC] [TIFF OMITTED] T3274.094

[GRAPHIC] [TIFF OMITTED] T3274.095

[GRAPHIC] [TIFF OMITTED] T3274.096

[GRAPHIC] [TIFF OMITTED] T3274.097

[GRAPHIC] [TIFF OMITTED] T3274.098

[GRAPHIC] [TIFF OMITTED] T3274.099

[GRAPHIC] [TIFF OMITTED] T3274.100

[GRAPHIC] [TIFF OMITTED] T3274.101

[GRAPHIC] [TIFF OMITTED] T3274.102

[GRAPHIC] [TIFF OMITTED] T3274.103

[GRAPHIC] [TIFF OMITTED] T3274.104

[GRAPHIC] [TIFF OMITTED] T3274.105

[GRAPHIC] [TIFF OMITTED] T3274.106

[GRAPHIC] [TIFF OMITTED] T3274.107

[GRAPHIC] [TIFF OMITTED] T3274.108

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
